<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    THE ROLE OF AFG AND SAFER GRANTS
                          IN COVID-19 RESPONSE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 12, 2020

                               __________

                           Serial No. 116-73

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-594PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois                MIKE GARCIA, California
BEN McADAMS, Utah                    THOMAS P. TIFFANY, Wisconsin
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
                        
                        
                        C  O  N  T  E  N  T  S

                             June 12, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     6
    Written Statement............................................     7

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

                               Witnesses:

Chief Gary Ludwig, President and Chairman of the Board, 
  International Association of Fire Chiefs
    Oral Statement...............................................    10
    Written Statement............................................    13

Mr. Roy L. ``Sandy'' McGhee, III, District 11 Vice President, 
  International Association of Fire Fighters
    Oral Statement...............................................    21
    Written Statement............................................    23

Mr. Steve Hirsch, Chair, National Volunteer Fire Council
    Oral Statement...............................................    29
    Written Statement............................................    31

Discussion.......................................................    37

              Appendix: Answers to Post-Hearing Questions

Chief Gary Ludwig, President and Chairman of the Board, 
  International Association of Fire Chiefs.......................    72
  
.                 
                  THE ROLE OF AFG AND SAFER GRANTS
                          IN COVID-19 RESPONSE

                              ----------                              


                         FRIDAY, JUNE 12, 2020

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

     The Committee met, pursuant to notice, at 12:30 p.m., via 
Webex, Hon. Eddie Bernice Johnson [Chairwoman of the Committee] 
presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     Chairwoman Johnson. And before I deliver my opening 
remarks, I'd like to note that we're in unusual circumstances 
under which this meeting is taking place today, but pursuant to 
House Resolution 965, today, the Committee is meeting 
virtually. This is not how we would prefer to conduct business, 
but we are in the midst of a global pandemic, and until I am 
convinced that we can return to work on a more normal basis, 
we'll continue to try to meet remotely so that we can play our 
part in slowing the spread of COVID-19.
     I want to also announce a couple of reminders to the 
Members about the conduct of this hearing. First, Members 
should keep their video feed on as long as they are present in 
the hearing, and Members are responsible for their own 
microphones, so just be mindful that you probably have a little 
bit more responsibility than usual than if we were in the 
regular meeting space. Please keep the microphones muted unless 
you're speaking.
     And finally, if Members have documents they wish to submit 
to the record, please email them to the Committee Clerk, whose 
email address was circulated prior to the hearing. But if you 
don't have it, we can make sure that you do get it.
     I welcome you to the Science, Space, and Technology 
Committee's first virtual hearing. Today, we're discussing the 
impact of COVID-19 on the fire service community and how we can 
best leverage existing Federal programs to expedite assistance 
to fire departments during the pandemic. I appreciate our 
witnesses being here under these unusual circumstances, but 
these are very important issues, and we look forward to your 
testimony.
     In 2018, medical aid calls totaled 64 percent of all the 
firefighter and EMS responses. Actual fires only accounted for 
4 percent of those calls. In addition to medical emergency 
response the expanded mission of the fire service includes 
hazardous materials response, enhanced technical rescues, and 
active shooter incidents. All of these missions require 
additional equipment, additional training, and additional 
staffing.
     COVID-19 is exacerbating what was already a chronic lack 
of sufficient funding for fire and EMS response, given their 
broad mission. So, during the COVID-19 public health crisis, we 
are relying more than ever on our Nation's fire service to 
provide emergency medical response. For those suffering from 
severe cases of COVID-19 disease, firefighters are sometimes 
the first health care workers they come in contact with. Sadly, 
many emergency responders have arrived to find such individuals 
have already passed away in their homes.
     Whether they are attending to the sick or to the families 
of those who have just passed, firefighters are risking their 
own health to serve their communities. Lack of adequate PPE 
(personal protective equipment) has led many of our 
firefighters to fall ill with COVID-19, and some, sadly, have 
died. These deaths represent a failure by the policymakers to 
provide adequate protection to our first responders.
     The Assistance to Firefighters Grant, or the AFG program, 
was established in 2001 to provide Federal assistance directly 
to local firefighting and emergency response efforts. Today, 
this funding is needed to purchase PPE and for other equipment 
and training needs related to COVID-19.
     In response to the crisis, Congress provided $100 million 
in the CARES Act for supplementary funding to the AFG program. 
FEMA (Federal Emergency Management Agency) received more than 
2,000 applications requesting a total of $128 million in 
funding. We understand those awards will be announced soon. 
But, unfortunately, this funding only begins to address the 
tremendous need.
     The House-passed HEROES Act proposed an additional $1 
billion in supplemental funding for the AFG program and its 
partner program, the Staffing for Adequate Fire and Emergency 
Response, or the SAFER program. I look forward to today's 
discussion and hope that we can understand more clearly what we 
are facing.
     COVID-19 has resulted in significant cuts to local and 
State tax revenues and other sources of support for fire 
departments, leaving some departments facing the hard decision 
to lay off firefighters in the midst of this crisis. We remain 
in the middle of this dual health and economic crisis at the 
same time that our country is confronting its long history of 
racial injustice.
     On top of that, we are in the early days of an ominous 
wildfire and hurricane season. This is a time of great 
uncertainty. Yet through it all, our communities are counting 
on us to ensure that our Nation's first responders have the 
tools and support they need to do their job well and safely. I 
look forward to today's discussion of how Congress can help 
ensure these brave women and men have the sources and resources 
that they need.
     [The prepared statement of Chairwoman Johnson follows:]

    Good afternoon and welcome to the Science, Space and 
Technology Committee's first virtual hearing. Today we are 
discussing the impact of COVID-19 on the fire service community 
and how we can best leverage existing federal programs to 
expedite assistance to fire departments during the pandemic. I 
appreciate our witnesses being here under these unusual 
circumstances but these are very important issues and we look 
forward to your testimony.
    In 2018, medical aid calls totaled 64% of all firefighter 
and EMS responses. Actual fires only accounted for 4% of calls. 
In addition to medical emergency response, the expanded mission 
of the fire service includes hazardous materials response, 
enhanced technical rescues, and active shooter incidents. All 
of these missions require additional equipment, training, and 
staffing. COVID-19 is exacerbating what was already a chronic 
lack of sufficient funding for fire and EMS response given 
their broad mission.
    During the COVID-19 public health crisis, we are relying 
more than ever on our nation's fire service to provide 
emergency medical response. For those suffering from severe 
cases of COVID-19 disease, firefighters are sometimes the first 
health care workers they interact with. Sadly, many emergency 
responders have arrived to find such individuals have already 
passed away in their own homes.
    Whether they are attending to the sick or to the families 
of those who have just passed, firefighters are risking their 
own health to serve their communities. Lack of adequate PPE has 
led many of our firefighters to fall ill with COVID-19, and 
some, sadly, have died. These deaths represent a failure by 
policy makers to provide adequate protection to our first 
responders.
    The Assistance to Firefighters Grant, or AFG, program was 
established in 2001 to provide federal assistance directly to 
local fire fighting and emergency response efforts. Today, this 
funding is needed to purchase PPE and for other equipment and 
training needs related to COVID-19.
    In response to the crisis, Congress provided $100 million 
in the CARES Act for supplemental funding to the AFG program. 
FEMA received more than 2,000 applications requesting a total 
of$128 million in funding. We understand those awards will be 
announced soon. Unfortunately, this funding only begins to 
address the tremendous need. The House-passed Heroes Act 
proposes an additional $1 billion in supplemental funding for 
the AFG program and its partner program, the Staffing for 
Adequate Fire and Emergency Response, or SAFER program.
    COVID-19 has resulted in significant cuts to local and 
state tax revenues and other sources of support for fire 
departments, leaving some departments facing the hard decision 
to lay off firefighters in the middle of this crisis. We remain 
in the middle of this dual health and economic crisis at the 
same time that our country is confronting its long history of 
racial injustice. On top of that, we are in the early days of 
an ominous wildfire and hurricane season. This is a time of 
great uncertainty. Yet through it all, our communities are 
counting on us to ensure that our nation's first responders 
have the tools and support they need to do their job well and 
safely. I look forward to today's discussion of how Congress 
can help ensure these brave women and men have the resources 
they need.
    Thank you.

     Chairwoman Johnson. And so now--is Mr. Lucas--yes, I see 
him. Mr. Lucas, I recognize you for an opening statement.
     Mr. Lucas. Thank you, Chairwoman Johnson, and good 
afternoon from the Science Committee hearing room in 
Washington, DC. Several Members are present and participating 
in today's virtual hearing, and I can assure you we are all 
following CDC (Centers for Disease Control and Prevention) 
guidelines.
     In approving virtual hearings, the Rules Committee 
recommended the House Committees make accommodation to ensure 
health and safety of participants. Several Committees have held 
either in person or hybrid-style hearings in recent weeks, and 
many of the Members of this Committee are here in Washington 
today, and we have plenty of room. And this hearing could 
easily have followed suit.
     I want to first thank and also urge my good friend, 
Chairwoman Johnson, to continue to accommodate the in-person 
participation of Members moving forward.
     Meanwhile, I want to welcome and thank our witnesses for 
joining us today in our first official hearing in nearly three 
months. We are fortunate to have three of the Nation's top 
first responders on the panel to discuss fire and EMS 
department needs during the COVID-19 pandemic.
     As COVID-19 continues to spread in pockets around the 
country, our Nation's first responders are the frontlines and 
vulnerable to contracting the virus. Fire and medical 
emergencies don't stop during a pandemic. While many Americans 
have sheltered at home for the last few months, our first 
responders don't have that option. We must ensure they have the 
resources and the equipment they need to stay safe, healthy, 
and on the job.
     Firefighting activities and funding are primarily the 
responsibility of State and local communities. However, for the 
past 18 years, the Federal Government has awarded competitive 
Federal grants directly to local fire departments and emergency 
medical services organizations to help address a variety of 
equipment, training, and other related needs. The AFG awards 
provide funding for equipment and training to ensure the safety 
of our Nation's first responders. SAFER awards help the 
departments hire, recruit, and retain firefighters to help 
maintain and increase the number of trained firefighters in 
local communities.
     This Committee led reauthorization of those programs two 
years ago out of recognition that it was in the national 
interest to have well-staffed and equipped fire departments in 
the case of a national emergency. We didn't anticipate then 
what we would be now. Who would have guessed that COVID-19 is 
now testing the Nation's emergency preparedness system?
     The CARES Act, which passed on a broad bipartisan basis, 
included $100 million to supplement funds to help fire 
departments buy or being reimbursed for personal protective 
equipment. I understand that FEMA's processing those 
applications and will be making awards in the next few weeks. I 
know that is not as fast as many of us would like, but for a 
program not designed to make emergency awards, they've moved 
with rapid speed.
     We have witnesses today from organizations and fire 
departments large and small, Oklahoma, Kansas, Illinois. All 
departments have different needs, and I look forward to their 
input on how we can improve the safety of our men and women on 
the frontlines during this crisis.
     I thank the witnesses for being with us virtually and for 
their service to our Nation. And with that, Madam Chair, I 
yield back.
     [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Johnson. Good afternoon from the 
Science Committee hearing room in Washington, DC. We have 
several Members here participating in today's virtual hearing, 
and I can assure you we are all following CDC guidelines.
    In approving virtual hearings, the Rules Committee 
recommended that House Committees make accommodations to ensure 
the health and safety of participants. A number of Committees 
have held either in-person or hybrid-style hearings in recent 
weeks. Several of the Members of this Committee are here in 
Washington today, and we have plenty of room. This hearing 
could have easily followed suit. I urge my good friend 
Chairwoman Johnson to continue to accommodate the in-person 
participation of Members going forward.
    Meanwhile, I want to welcome and thank our witnesses for 
joining us in our first official hearing in nearly three 
months. We are fortunate to have three of our nation's top 
first responders on the panel to discuss fire and EMS 
department needs during the COVID-19 pandemic. As COVID-19 
continues to spread in pockets around the country, our nation's 
first responders are on the front lines and vulnerable to 
contracting the virus.
    Fire and medical emergencies don't stop during a pandemic. 
While many Americans have sheltered at home for the last few 
months, our first responders don't have that option. We must 
ensure they have the resources and equipment they need to stay 
safe, healthy, and on the job.
    Firefighting activities and funding are primarily the 
responsibility of states and local communities. However, for 
the last 18 years, the federal government has awarded 
competitive federal grants directly to local fire departments 
and Emergency Medical Services (EMS) organizations to help 
address a variety of equipment, training, and other related 
needs.
    A-F-G awards provide funding for equipment and training to 
ensure the safety of our nation's first responders. SAFER 
awards help departments hire, recruit, and retain firefighters 
to help maintain and increase the number of trained 
firefighters in local communities. This Committee led the 
reauthorization of those programs two years ago, recognizing 
that it is in the national interest to have well-staffed and 
equipped firedepartments in case of a national emergency. We 
didn't anticipate then what that would be, but COVID-19 is now 
testing our nation's emergency preparedness system.
    The CARES Act, which passed on a broad bipartisan basis, 
included $100 million in supplemental funds to help fire 
departments buy or be reimbursed for personal protective 
equipment. I understand that FEMA is processing those 
applications and will be making awards in the next couple of 
weeks. I know that is not as fast as many of us would like, but 
for a program not designed to make emergency awards, they have 
moved with rapid speed.
    We have witnesses today from organizations and fire 
departments large and small, from Oklahoma, Kansas, and 
Illinois. All Departments have different needs--and I look 
forward to their input on how we can improve the safety of our 
men and women on the frontlines during this crisis.
    I thank the witnesses for being with us virtually, and for 
their service to our nation.
    I yield back.

     Chairwoman Johnson. Thank you very much, Mr. Lucas.
     If there are other Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
     And at this time I'd like to introduce our witnesses. Our 
first witness is Fire Chief Gary Ludwig. Chief Ludwig is the 
President and Chairman of the Board of the International 
Association of Fire Chiefs (IAFC). He is also the Fire Chief 
for Champaign, Illinois, Fire Department. Prior to his service 
in Champaign, Chief Ludwig served in the city of St. Louis for 
25 years and retired as Chief Paramedic of the St. Louis Fire 
Department. He has also served 10 years as Deputy Fire Chief 
for the Memphis Fire Department.
     After Chief Ludwig is Mr. Roy ``Sandy'' McGhee. Mr. McGhee 
is the International Association of Fire Fighters (IAFF) 
District 11 Vice President, representing over 27,000 
firefighters in the State of Oklahoma, Texas, and the Panama 
Canal Zone. He is in his fourth term and was first elected in 
2004. As an IAFF Vice President, Mr. McGhee provides advice, 
consultation, and organizational resources to over 300 local 
affiliates in District 11. He served 25 years as a firefighter 
in Tulsa, Oklahoma, and retired from the fire department ranked 
as Fire Captain.
     Our third witness is Mr. Steve Hirsch. Mr. Hirsch 
currently serves as Chair of the National Fire Volunteer 
Council. Mr. Hirsch is also Training Officer for Sheridan 
County Fire District #1, Thomas County Fire District #4, and 
Grinnell Fire Department, all of which are 100 percent 
volunteer fire departments. Mr. Hirsch also currently serves as 
first Vice Chair of the Kansas State Firefighters Association 
after serving as Secretary from 2000 to 2018.
     As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. When all of you have 
completed your spoken testimony, we will begin with questions. 
And each Member will have 5 minutes to question the panel.
     And I will start with Chief Ludwig. Chief Ludwig, you can 
begin your testimony.

                TESTIMONY OF CHIEF GARY LUDWIG
              PRESIDENT AND CHAIRMAN OF THE BOARD
            INTERNATIONAL ASSOCIATION OF FIRE CHIEFS

     Mr. Ludwig. Thank you, and good afternoon, Chairwoman 
Johnson, Ranking Member Lucas, and distinguished Members of the 
Committee. I am Chief Gary Ludwig, the President and Chairman 
of the Board for the International Association of Fire Chiefs 
and the Fire Chief of the Champaign Fire Department in 
Illinois. I appreciate the opportunity to testify at today's 
hearing.
     The Nation's fire and EMS (emergency medical services) 
departments are at the tip of the spear in the fight against 
COVID-19. Regardless of whether they are from career, 
volunteer, or combination departments, fire and EMS personnel 
provide aid every day to victims of COVID-19.
     When a person is suffering from COVID-19 calls 911, fire 
and EMS personnel must meet them in their homes, provide aid, 
and transport them to the hospital. Fire Chiefs across the 
Nation are working tirelessly to protect their staff by 
supplying them with the necessary N95 masks, emergency gowns, 
and other lifesaving supplies.
     Nevertheless, 55 fire and EMS persons have died in the 
line of duty from exposure to COVID-19, and more than 1,000 
fire and EMS personnel have been infected. We're having trouble 
getting critical medical--or critical masks, gowns, and 
sanitizing agents. Our firefighters were not originally 
considered a high priority for PPE or for testing, which led to 
quarantining firefighters while they awaited results. We are 
also concerned that we will again run into obstacles to 
inoculating our staff when vaccines are developed.
     Fire departments budgets are getting crushed by COVID-19 
pandemic. When firefighters are exposed to COVID-19, we 
quarantine them for 14 days or at least until the test results 
come back. We cover these staffing shortfalls with overtime and 
backfill pay. Also, the cost of basic N95 masks and sanitizing 
equipment has increased. Meanwhile, local budgets are squeezed 
due to stay-at-home and social distancing orders. This 
situation results in reduced services to communities and 
layoffs.
     The IAFC surveyed its membership in May. We found that 
fire departments expect to suffer $16.9 billion in budget 
shortfalls across the Nation in 2021 as a result of the 
economic downturn. Our survey also found that approximately 
1,000 fire department personnel had been laid off already and 
that an additional 30,000 firefighters may be laid off in the 
next 12 months. If there is a second wave of COVID-19 
infections, fire departments will need Federal assistance to 
fight this plague.
     The IAFC thanks Congress and the Trump Administration for 
this help this spring. The CARES Act included a special 
appropriation of $100 million for the AFG program that covered 
COVID-19 expenses. FEMA has moved quickly to open the 
application period for these grants, which closed on May 15. 
DHS (Department of Homeland Security) also waived requirements 
for fiscal year 2019 and 2020 SAFER grants to make it easier 
for fire departments to hire firefighters to help their 
communities. I also recognize the leadership of the U.S. Fire 
Administration in being a helpful partner during this pandemic.
     As the Nation continues to fight the COVID-19 pandemic and 
its economic effects, the Nation's fire and EMS departments 
still need Federal assistance. Fire departments will need 
financial assistance to weather the economic storm and serve 
their communities. The HEROES Act includes $500 million each 
for the AFG and SAFER grant programs. The AFG funds will help 
fire departments purchase PPE and sanitizing equipment for 
COVID-19 response. The SAFER grant funds will allow fire 
departments to rehire and retain firefighters. The legislation 
also waives local match and other requirements to help fire 
departments apply for these funds. We ask the Senate to pass 
these provisions. We also request $50 million for the SIREN 
grant program at HHS (Department of Health and Human Services) 
to support rural EMS.
     Fire departments must be top priorities for receiving PPE 
and sanitizers. Congress and the Administration must work 
together to ensure a secure and trustworthy supply chain that 
purchases and delivers necessary equipment to local fire 
departments. Currently, fire and EMS departments must compete 
with the States to buy supplies on the open market. In 
addition, Chinese counterfeits are flooding the United States, 
creating confusion.
     Fire departments must be a top priority for testing and 
vaccines. In March, the U.S. Public Health Service listed first 
responders as second-level and third-level priorities. Due to 
the shortage of COVID-19 tests, it was difficult to obtain 
tests for fire and EMS personnel. Fire departments need to have 
access to rapid testing. In addition, Congress should ensure 
that fire and EMS personnel are top priorities for distribution 
of COVID-19 response.
     Fire departments must be notified of drug shortages. The 
FDA (Food and Drug Administration) announced that shortages are 
possible for medications that can be used for COVID-19. 
However, we have not been informed about them. Fire departments 
need to know about potential shortages so they can work with 
State and local authorities to develop alternatives.
     Congress should support local volunteer firefighters. 
Volunteer firefighters are providing COVID-19 response to their 
communities with little or no compensation. They run the risk 
of exposure and endangering their families and being unable to 
attend their jobs. The House recognized this problem in the 
HEROES Act. This bill would exclude from Federal taxation State 
and local property tax and up to $600 and other incentives for 
volunteers. We ask the Senate to support this provision.
     Congress should repeal the auction of the public safety 
spectrum and the T-band. Eleven major metropolitan areas use 
the T-band for interoperable voice communications. For example, 
New York City, Los Angeles have relied on their T-band 
communications to coordinate the 911 law enforcement, fire, and 
EMS response to COVID-19. Under statute, the FCC (Federal 
Communications Commission) has been directed to auction this 
vital spectrum by February 2021. The HEROES Act addressed this 
issue by repealing the T-band auction. We ask the Senate to 
support this provision.
     In closing, I thank you for holding today's hearing on 
fire and EMS response to COVID-19. The Nation's fire and EMS 
services need heroes in Washington, DC, to help us fight this 
unseen enemy. I look forward to working with you to support 
local fire and EMS departments. Thank you again.
     [The prepared statement of Mr. Ludwig follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Johnson. Thank you, Mr. Ludwig.
     We now will have Mr. Roy McGhee.

         TESTIMONY OF MR. ROY L. ``SANDY'' McGEE, III,

                  DISTRICT 11 VICE PRESIDENT,

           INTERNATIONAL ASSOCIATION OF FIRE FIGHTERS

     Mr. McGhee. Thank you, Chairwoman Johnson, Ranking Member 
Lucas, and distinguished Members of the Committee. My name is 
Sandy McGhee, and I'm the District 11 Vice President for the 
International Association of Fire Fighters representing more 
than 27,000 professional firefighters and emergency medical 
personnel in Oklahoma and Texas, who serve as frontline workers 
in our Nation's public health response to the COVID-19 
pandemic.
     As prehospital healthcare providers, firefighters and 
emergency medical personnel are often the first workers in 
physical contact with COVID-19 patients. The nature of their 
work requires they be in close proximity to patients in 
uncontrolled environments. Responders performing this dangerous 
work must be properly protected both to limit the spread of the 
virus itself and to ensure they remain healthy and able to 
serve their communities.
     Yet in far too many places we are relying on firefighters, 
paramedics, and EMTs (emergency medical technicians) to respond 
to work without the proper protection. Even today, several 
months into the pandemic, fire departments across the country 
are reporting a shortage of all types of personal protective 
equipment.
     In Texas, PPE shortages can be found in communities of all 
sizes. According to the Texas State Association of Fire and 
Emergency Districts, 2/3 of emergency service districts are 
concerned about a lack of PPE and half said an inability to 
procure enough PPE has already affected responders. In Dallas, 
firefighters are reusing N95 masks many times, a practice which 
we know reduces their effectiveness and places firefighters and 
the public they serve at risk.
     At the same time, fire department budgets have been hit 
hard by the current economic crisis, as local governments are 
facing decreased tax revenue and other significant fiscal 
pressures. This is particularly true in States such as Texas 
and Oklahoma, which rely on sales tax revenue to fund the 
public services. As a result, many fire departments are facing 
deep budget cuts with some already forced to lay off and/or 
furlough firefighters. For example, my hometown of Tulsa, 
Oklahoma, relies primarily on sales taxes to fund public 
services. The economic slowdown at the start of the pandemic 
led to a drastic revenue reduction for the city. We are 
currently expecting a budget shortfall of over $2.7 million.
     Layoffs and furloughs are uniquely challenging as we 
continue to deal with the COVID-19 virus. As firefighters 
experience high-risk exposures to infected individuals, they 
are put in quarantine or isolation, placing further stress on 
the department and make maintaining full staffing levels even 
that much more important.
     AFG and SAFER provide a lifeline to departments facing 
such challenges. We are grateful that Congress provided $100 
million for AFG through the CARES Act to help local fire 
departments obtain needed PPE and related supplies, but we know 
that fire departments will continue to have significant unmet 
needs in the wake of the recession. We are pleased that the 
House included an additional $500 million in AFG and $500 
million in SAFER to hire, retain, and rehire firefighters in 
the HEROES Act.
     In addition to adequate funding, fire departments should 
be granted waivers from certain statutory requirements under 
AFG and SAFER to allow those departments with budgetary 
challenges the flexibility they need to afford necessary 
equipment and personnel. For SAFER in particular, departments 
should be allowed to use funds to retain or rehire 
firefighters. We also believe SAFER grantees should receive 
waivers from certain budgetary requirements, including the 
period of performance, cost share, maintenance of expenditures, 
and funding caps.
     We also support waivers of budgetary requirements under 
AFG, particularly waivers of the local cost share and 
maintenance of expenditure requirements, as well as funding 
caps. Together, these waivers will help fire departments save 
thousands of firefighter jobs and ensure firefighters receive 
the personal protective and decontamination equipment that they 
need. Absent these waivers, the restrictions under the programs 
will likely dissuade fire departments facing fiscal challenges, 
those departments which need funding the most, from even 
applying for grants, potentially allowing desperately needed 
funds to go to waste.
     Finally, I'd like to thank the Committee for the 
opportunity to testify today, and I am happy to answer any 
questions that you may have. Thank you.
     [The prepared statement of Mr. McGhee follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Johnson. Thank you, Mr. McGhee.
     And our third and final witness is Mr. Steve Hirsch. I now 
recognize Mr. Hirsch.

             TESTIMONY OF MR. STEVE HIRSCH, CHAIR,

                NATIONAL VOLUNTEER FIRE COUNCIL

     Mr. Hirsch. Thank you. Chairwoman Johnson, Ranking Member 
Lucas, and Members of the Committee, my name is Steve Hirsch. 
I'm Training Chief for Sheridan County, Kansas, Volunteer Fire 
Department, and I serve as Chairman of the National Volunteer 
Fire Council (NVFC). The National Volunteer Fire Council 
represents the interests of the Nation's volunteer fire, EMS, 
and rescue services. On behalf of the NVFC, I want to thank the 
Committee for the opportunity to speak to you about the 
challenges that the Nation's fire and emergency service 
organizations face related to COVID-19 and the role that the 
AFG and SAFER grant programs can play in helping us meet these 
challenges.
     I'm one of 745,000 volunteer firefighters in the United 
States. That represents about 67 percent of the Nation's 
firefighters. All and mostly volunteer fire departments account 
for 82 percent of the Nation's fire departments and protect 32 
percent of the Nation's population. My remarks will focus on 
the COVID-19's impact, especially in smaller communities where 
volunteers are most common and how the AFG and SAFER grant 
programs can help. I could not be prouder of our volunteer 
firefighters and EMS providers in being the leader of this 
organization that represents them.
     The NVFC has been running a survey to assess the impact of 
COVID-19 on our volunteer fire and EMS agencies. What we find 
is that 62 percent of the respondents overall have reported 
that they're running low on personal protective equipment or 
PPE, while 23 percent report that they've run out completely. 
Forty-six percent report that they have staff who are either 
unable or unwilling to respond. Fifty percent report the 
inability to recruit new volunteers to be a significant 
problem. And 49 percent report that not being able to fundraise 
as being a major challenge to their department.
     The inability to train, to recruit, and fundraise are 
overlapping issues since they typically involve face-to-face 
interactions that COVID-19 has curtailed. Our primary concern 
of course is keeping our personnel safe. In a 2-month period 
from the end of March through the end of May there were 54 
documented fire and EMS COVID-19-related fatalities, including 
18 who have been identified as volunteers at this point.
     Fire and EMS personnel are at a heightened risk of 
exposure, and the risk is made worse by the lack of PPE. 
Volunteer fire and EMS departments have been forced to reuse 
disposable PPE and in many cases to repurpose other items to 
serve as makeshift PPE. As has been noted, Congress provided 
$100 million in AFG funding in the CARES Act for the purchase 
of PPE and related supplies. The CARES Act funding will help 
address PPE shortages for the hardest-hit fire departments 
across this Nation. While many fire departments will be helped 
by this funding, it should be noted that, based upon the number 
of anticipated awards, that less than 5 percent of the Nation's 
fire departments will be likely to receive an AFG-S (Assistance 
to Firefighters Grant--Supplemental) grant.
     The reality is that more funding is desperately needed. On 
May 15 Congress--the House passed the HEROES Act, which 
provided an additional $500 million to AFG for additional PPE 
purchases and an additional $500 million for SAFER funding to 
help fire departments hire, recruit, and retain volunteer and 
career firefighters.
     The HEROES Act waived certain statutory requirements 
associated with both AFG and SAFER. The NVFC is on record as 
supporting the waiving of the local match. Without these 
waivers, many fire departments that need help the most would 
not be able to accept grants.
     The NVFC is opposed, however, to language in the HEROES 
Act that would eliminate the law--in the law a requirement the 
volunteer fire departments receive at least 25 percent of the 
appropriated funding. The set-aside of 25 percent for volunteer 
fire departments ensures that volunteer fire departments are 
mostly competing for funding against other volunteer agencies. 
Changing this, I believe, will hurt volunteer fire departments' 
ability to get grant funding.
     One of the major challenges that FEMA has faced in 
administering the AFG-S funding under CARES was the fact that 
they're still in the midst of the fiscal year 2019 grant cycle. 
FEMA is now online to do peer-reviews for grants remotely, and 
that's greatly sped up the process of getting these grants 
reviewed and ultimately awarding them.
     The grant application periods are typically open for a 
month each, which require departments time to collect the 
required data, develop narratives, and put together a 
competitive application that has a decent chance of getting 
funded. Speeding up the grants schedule without significantly 
reducing the complexity of the application will result in fewer 
applications being submitted, especially from smaller fire 
departments.
     Fire and EMS agencies, as you've heard, across the Nation 
are suffering from a huge revenue shortfall, a combination of 
increasing costs from responding to COVID-19, reduced financial 
support from local governments, and an inability to fundraise. 
Simply put, we need more money to be able to fulfill our 
mission.
     During this pandemic, volunteer fire and EMS agencies have 
stepped up in amazing ways to help out their communities. I say 
amazing but yet that's what volunteers do. They step up to the 
plate time and again to protect their communities and their 
neighbors when they need it the most.
     I'd like to thank the Committee again for the opportunity 
to testify, and I look forward to answering any questions that 
you might have.
     [The prepared statement of Mr. Hirsch follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Johnson. Thank you very much.
     At this point we'll begin our first round of questions, 
but before we do, I would like to ask that each person keep 
their screens on, and I'm going to ask the staff to help us to 
determine how to acknowledge the next speakers.
     But at this point I'll yield myself 5 minutes for 
questions.
     The assistance of firefighters, fire prevention, and 
safety and SAFER grant programs have helped fire departments 
meet training, equipment, and staffing needs for many years. As 
you all have indicated, the needs were already great and 
growing, and the programs have been chronically underfunded to 
meet these needs. And then came COVID-19 and fire and emergency 
departments across the country are under unprecedented stress. 
Congress did provide $100 million of supplementary funding to 
AFG in the CARES Act, but much more, we know, is needed, 
whether it comes from the Federal Government or from the States 
or local jurisdictions.
     What would be the consequences of policymakers failing to 
provide emergency funding to fire departments in the coming 
months? I will start with any of the witnesses that would like 
to begin to respond.
     Mr. Hirsch. Well, I can speak for the volunteer fire 
service certainly. Many of the volunteer fire departments have 
to do fundraising, chicken feeds, pancake feeds, things of that 
nature, in order to survive because a lot of them don't get tax 
revenue. It's been impossible for them to go out and do those 
kind of fundraising activities. A lot of them do door-to-door 
solicitations. They can't do those. In those communities that 
do rely upon tax support, those revenue streams have also 
weakened considerably.
     Whether or not we'll see any impact in my own fire 
district because we're property tax-supported is probably not 
going to happen until next year because most of those funding 
sources are already set. That's one.
     The other is is that in the volunteer service, again, we 
rely upon recruiting volunteers 24/7, 365 because we can never 
allow ourselves to get behind in having staffing in our 
volunteer agencies. And we've now taken about 2 months out of 
this process where it was very difficult for volunteer fire 
departments to be able to recruit folks. If we don't have 
adequate funding, the system potentially can completely fall 
apart.
     Chairwoman Johnson. Thank you very much. Mr. McGhee, let 
me ask you something about mental health. The International 
Association of Fire Fighters operates a Center of Excellence 
for behavioral health treatment and recovery, which offers 
treatment to firefighters and emergency medical personnel for 
PTSD (post-traumatic stress disorder) and other behavioral 
health disorders. Unfortunately, mental health for the first 
responders is still stigmatized, really for all. The funding 
provided under the CARES Act may be used to assist in the cost 
for mental health evaluations. Can you expand on how COVID-19 
is impacting firefighter and EMT mental health and how AFG 
funding can help?
     Mr. McGhee. Yes, thank you very much for the question. 
Behavioral health issues haven't stopped just because we're in 
a pandemic, and in fact they have been somewhat magnified. The 
pressure and stress that first responders are under certainly 
as they respond to the pandemic lends credibility to that. The 
issues that we're having is--are related to social distancing 
rules and our ability to travel and go places and seek the 
treatment that we need. For instance, at our Center of 
Excellence facility in Upper Marlboro, Maryland, the intake of 
new patients has slowed simply because of travel restrictions 
and the social distancing requirements. And we think that's a 
problem.
     Consequently, what we're trying to do is find local areas 
or treatment facilities in--on a local basis for our members 
and firefighters to be able to receive the treatment that they 
need. If we don't have adequate funding, those kind of 
resources are going to dry up, and we're not going to be able 
to find or receive the training that we need or the help that 
we need I should say for behavioral health issues that are 
magnified by our response to the pandemic. So, we appreciate 
the money and the revenue that's available and has been made 
available from Congress.
     Chairwoman Johnson. Well, thank you very much. I believe 
my time has expired. I need some help with that. So, I'm going 
to now recognize Mr. Lucas. Mr. Lucas?
     Mr. Lucas. I'll turn it to the entire panel for my first 
question. In your testimony, you've all made different 
recommendations for the best way to distribute emergency 
supplemental funds to local fire departments. How do you 
recommend Congress balance the speed of getting the funds out 
the door with making sure resources are going where they're 
needed the most in a fair process?
     Mr. Hirsch. Well, I can certainly speak for the volunteer 
fire service. The--this grant program--the grant programs have 
been administered by the U.S. Fire Administration through FEMA. 
They've worked remarkably well the last 18 years since we've 
had these programs in place. The reason that they work so well 
is that we're--we do peer reviews. In other words, other 
firefighters actually sit in on the reviews of those grant 
applications, and that has worked amazingly well. We're--you 
know, we're sort of the experts in this field, and it's worked 
tremendously well. Now that they're able to do peer reviews in 
a remote setting, I think those are going to move fairly 
quickly.
     Mr. Ludwig. And I from the International Association of 
Fire Chiefs, we truly support the current--as Steve said, the 
current AFG and SAFER programs, the process by--the way that's 
been delivered. It's a very clear and transparent process that 
there's no middle agency, no middle person. The funds go 
directly from the Federal Government directly to fire 
departments. There is a very transparent and clear process with 
that with the peer-review process that Steve spoke of, and it 
has been a proven system that has worked for multiple years, 18 
years or so, and we support that process wholeheartedly.
     Mr. McGhee. Ranking Member Lucas, I don't have anything to 
add other than what my fellow panelists have already said.
     Mr. Lucas. Absolutely. And with that, Mr. McGhee, I would 
note that it's always nice to have a fellow Oklahoman on the 
panel. And, as you're well aware of, whether in the last few 
days whether it's Kingfisher County, Alfalfa County, Greer 
County, Dewey County, Major County, we've had an ongoing set of 
fire challenges out in the countryside.
     Mr. McGhee. Yes.
     Mr. Lucas. You're well aware of that. And, as you also 
know, I represent essentially the northwest half of the great 
State of Oklahoma with many small volunteer fire and EMS 
departments. And although we've been very fortunate to have, 
compared to the rest of the country, a limited number of cases 
of COVID-19 in the 3d District of Oklahoma, what have been the 
particular challenges for Oklahoma's rural firefighters during 
this pandemic? Because we've not faced anything quite like this 
in my lifetime.
     Mr. McGhee. Sure. Thank you very much for the question. 
You're right; we haven't faced anything like this in our 
lifetimes, and it has--this pandemic has posed particular 
challenges to fire and EMS departments regardless of their 
size. What we found so far, as this pandemic has unfolded in 
front of us, is the availability of PPE varies from 
jurisdiction to jurisdiction. Some fire departments are better 
supplied than others. Some have sufficient PPE. Others do not. 
And we find that that holds true whether it's in a rural 
setting, a volunteer setting, a combination setting, or a 
metropolitan fire department.
     What goes along with this difficulty in obtaining PPE in 
those areas where it is difficult is response protocols. Fire 
departments, regardless of size or location, have had to 
develop protocols on the fly. That holds true for volunteers, 
combination departments, and career departments. We've--
firefighters have done what we've always done. We adapt to the 
situation and respond as best we can, given the circumstances. 
Some departments are better situated than others, and I think 
that comes down to a local leadership or a local jurisdiction 
issue, but that's also why funding to allow for the proper 
equipment and staffing is so important.
     For instance, in Stillwater, firefighters today are not 
permitted to wear N95 masks on a daily basis. Rather, they are 
mandated to wear surgical masks, which we know has a limited 
application. And they also are not afforded the appropriate 
number of Tyvek suits. They are only allotted a certain number 
per rig. And what we find, Congressman, is these kinds of 
situations are all over the map, and it depends on which 
particular fire department you're talking about. But those 
kinds of situations are not uncommon all across the State.
     Mr. Lucas. Mr. Hirsch, if you wouldn't mind following up, 
how does that track with what you're seeing in the volunteer 
departments nationwide?
     Mr. Hirsch. I think very similar. Interestingly enough, of 
course, many of our fire departments in the southwest part of 
Kansas are working hand-in-hand with departments in northwest 
Oklahoma. They cross those lines with some frequency.
     Mr. Lucas. Oh, yes.
     Mr. Hirsch. Because fires don't seem to know where the 
State line is. But, you know, things just as simple I guess 
that would come to my mind would be, you know, when rural fire 
departments are responding to motor vehicle accidents out on 
the roadways, we don't know whether someone's got COVID or not, 
so we have to take the proper precautions when we arrive on 
those scenes, and that's been a challenge for a lot of 
departments, you know, making sure that we have appropriate 
PPE. We've been very fortunate to not have, you know, barely 
any cases in our particular region, but we can never let our 
guard down because the primary thing is to protect our people.
     You know, these--with the volunteers--and it doesn't 
matter whether you're in Oklahoma or Kansas or Massachusetts or 
Alaska, you know, they're leaving their jobs during the 
daytime, they're leaving their families at night, and they're 
running the risk that they bring it home to their families--the 
career people the same--but they're also running the risk that 
they may not have a job if they contract this stuff or, worse 
yet--and things that we have faced--very small departments, if 
you get one or two that contract COVID-19, all of a sudden 
you've got a fire department or an ambulance agency that are 
completely shut down. That's a big concern and a big fear.
     Mr. Lucas. Absolutely, Mr. Hirsch. Absolutely.
     With that, Madam Chair, I appreciate the insights of our 
witnesses, and I yield back.
     Chairwoman Johnson. Thank you very much, Mr. Lucas.
     The Chair now recognizes Ms. Lofgren.
     Ms. Lofgren. Thank you very much, Madam Chair and Mr. 
Lucas. I think this hearing is very helpful.
     I have heard your testimony. All of you spoke about the 
need to eliminate the match requirement. I couldn't agree with 
you more. That's really a barrier to getting the help to where 
it needs to be right now, and so I think your testimony was 
excellent and persuasive, and I hope we can get that done as 
soon as possible.
     I would be remiss if I didn't also thank you for your all 
you're doing for our country, each one of you. This is a very 
tough time, challenging time for our country, and for first 
responders to step up for our community, it's really so 
admirable and we are so grateful to you.
     I have a question. Here in California we worry not just 
about COVID-19, but we're entering the wildfire season. And 
we're being told by the National Interagency Fire Center that 
it's going to be a very hot, dry weather drought-type condition 
across the Western United States. How does the--you know, we're 
going to have above-average wildfire potential. What unique 
challenges does COVID-19 present in fighting these wildland 
urban interface type of fires? Do you--have you thought through 
that? Is there advice you can give us on that, any of you, all 
of you?
     Mr. Ludwig. I can take that question. Yes. In fact, the 
IAFC has a COVID-19 task force, and we're looking at a 
multitude of issues that impact us with this. But one of the 
areas that we brought onto the task force is a member that is 
very well-experienced and very much a subject matter expert on 
wildland fires because we do have concerns. We have major 
concerns about the wildland fire season that's coming up.
     As an example, we need to be able to protect firefighters 
in those base camps from infection. We've got to worry about 
evacuating and sheltering the civilian population while 
maintaining social distancing requirements. We have to ensure 
that the Federal and local firefighters have enough of the 
appropriate PPE and supplies to prevent that infection. There's 
also some tactical considerations about transportation and 
maintenance of the fire line while also maintaining the social 
distancing. And then, as you've heard when we talk about 
between Kansas and Oklahoma, the mutual aid between the 
jurisdictions that could be hampered as a result of the COVID-
19. So, yes, we have a lot of concerns about the upcoming 
wildfire season, and we're trying to look at this and address 
this.
     Ms. Lofgren. What steps could we take and can Congress 
support to provide tools to address those important issues that 
you just outlined?
     Mr. Ludwig. Well, certainly the funding is something that 
is so absolutely important to this because if we don't have the 
proper PPE, the things that I just described about the exposure 
to infection, evacuating and sheltering the civilian population 
while also trying to maintain social distancing requirements, 
those are all things that are going to require money. So, the 
Federal money is so important to make sure that we keep our 
firefighters and civilians safe during the wildland fire 
season.
     Ms. Lofgren. Just one quick question. I think it was Mr. 
McGhee who talked about the need for consistent protocols. That 
makes sense to me. Obviously, not every place is the same. But 
is this an area where the National Fire Protection Association 
(NFPA) should be asked to develop and--some protocols that they 
could distribute out to departments around the country?
     Mr. McGhee. We have--the IAFF has been utilizing every 
resource available as we develop and assist fire departments 
developing protocols. The primary governmental agency that 
we've been relying on to the best of my understanding is CDC.
     Ms. Lofgren. Right.
     Mr. McGhee. Our recommendations have been following their 
guidelines organizationally and as we assist our local 
affiliates with that kind of a question. So, we believe that 
utilizing those Federal Government guidelines is very important 
to give us a--kind of a universal baseline from which to work 
from, and we think those are very important.
     Ms. Lofgren. Finally, I was disturbed, Mr. McGhee, to 
learn that people who need mental health assistance because of 
the trauma that they're encountering, you know, were not able 
to--always to get it because of travel restrictions and the 
like, and I'm wondering, is there a role to play--obviously, 
the center is the gold standard for treatment, but is there a 
way to get people in need of treatment into more locally 
available resources? What can be done? Because I can just 
imagine repeatedly encountering the kinds of things that 
firefighters are encountering these days. You know, they need 
support.
     Mr. McGhee. Yes, they do. And prior to the pandemic, we 
were working and still are on ways to make available services 
more readily available to firefighters. One of the things that 
we have found out is just talking about behavioral health 
issues makes and allows a scenario for more affected 
individuals to feel safe and comfortable coming forward, but we 
haven't been able to fully develop the programs to expand our 
footprint so to speak, and it's more important now just based 
on the travel restrictions and finding the right clinicians and 
the right resources that we can send our folks to, we're 
working on that. There are some what I will call groundbreaking 
areas of concern there and programs that we're developing, but 
they're still in the development stages. They are not ready to 
roll out. It's a challenge for us.
     Ms. Lofgren. Very good. Madam Chair, I see my time is 
expired. I yield back. Thank you so much.
     Chairwoman Johnson. Thank you. Mr. Posey.
     Mr. Posey. Thank you, Madam Chair, for holding this 
hearing, and I appreciate very much the witnesses coming and 
sharing with us in more detail about what your needs are.
     I wish there had been a standalone bill. I think it would 
be unanimous through the House and the Senate as well. I don't 
know a single Member of Congress that doesn't appreciate our 
firefighters. I've got several of them in my family, so I'm 
serious as a heart attack about that.
     But, recently, the NASA (National Aeronautics and Space 
Administration) Administrator Jim Bridenstine mentioned how his 
space centers are working with private companies to help our 
Nation respond to the COVID pandemic.
     There was one project you mentioned that NASA's Glenn 
Research Center helped to develop and test. That product is 
AMBUstat, and it helps decontaminate spaces such as ambulances 
in under an hour at a fraction of the cost of other systems. 
According to NASA, it helped guide the development and 
production of this product back in 2015 and is now conducting 
additional research to continue to maximize the effect of this 
product on COVID-19. Have you all heard of the product, and are 
you aware of fire departments using this program to 
decontaminate ambulances and their gear?
     Mr. McGhee. I have not heard of that product, and I'm not 
aware of anybody using it.
     Mr. Ludwig. And I--I'm with Sandy on that. I have not 
heard of that product, so, sorry, I can't help you there.
     Mr. Posey. OK.
     Mr. Hirsch. And I would echo that as well.
     Mr. Posey. Well, my next question was going to be where, 
but you haven't heard of it, so I might suggest that we ask 
NASA to kind of reach out with that a little bit. It sounds 
like it's really got great redeeming qualities.
     In addition to the Supplemental Assistance to Firefighters 
Grant, funds provided in the CARES Act, how have the U.S. Fire 
Administration and the Federal Emergency Management Agency 
assisted fire departments in assessing resources such as 
AMBUstat to help them respond to the COVID-19 crisis? Any, all?
     Mr. Ludwig. So, I'll answer that. I must tell you that the 
United States Fire Administration has been a champion through 
all this. The Administrator Keith Bryant has been superb and 
his staff has been superb. I spoke about the COVID-19 task 
force that the IAFC has. We have a member of the United States 
Fire Administration that sits on there and provides us, again, 
with subject matter expertise.
     Additionally, when we were suffering early on with the 
lack of PPE and getting issues through the supply chain, it was 
the Administrator Keith Bryant who helped us to bridge that gap 
with FEMA, and we had an hour-long phone call actually with the 
FEMA Administrator Pete Gaynor about supply chain issues that 
we were having, the lack of PPE for fire departments. And so I 
can't say enough about the current Fire Administrator and 
United States Fire Administration about how responsive they've 
been through this.
     Mr. Posey. Awesome. Well, thank you. We hear so many 
conflicting reports about the Administration, and it's good to 
hear that things are connecting the way they should be from 
Washington to the homeland.
     Mr. Ludwig. Yes, I--again, I can't say enough about the 
Administrator and his staff. They're outstanding.
     Mr. Posey. Well, thank you. Thank you, Madam Chair. I 
yield back.
     Chairwoman Johnson. Thank you very much. Mr. Lipinski.
     Mr. Lipinski. Thank you, Chairwoman Johnson, for holding 
this hearing. I want to start out by talking about an issue of 
coordination. In my district there are a few fire--suburban 
fire departments that are coordinating together an Illinois 
Mutual Aid Box Alarm System (MABAS), and I supported their 
joint application for an AFG COVID-19 supplemental grant so 
they can continue their collective regional approaches to 
curating and sharing resources, including PPE as needed across 
the region.
     So, those relationships also allow them to share best 
practices on PPE protocols so that if they respond to calls 
together in their protocols, they can be confident their 
colleagues are taking the same safety precautions. So, I know 
that many departments across the Nation work together side by 
side in the field even if they don't have a formal partnership. 
I'm wondering if any of the witnesses have thoughts to share 
about regional standardization of policy for proper use of PPE.
     Mr. Ludwig. So, Congressman, I'm from Illinois like you 
are, and I'm very familiar with the MABAS alarm system. I'm in 
Division 28. And we try to standardize where we can, but we 
also use best practices, as recommended by the CDC and also the 
World Health Organization. They also have some best practices 
also. And so when we try to standardize our approach with PPE 
across regions, we try to follow the expert's leads in that 
regard.
     Mr. Lipinski. Thank you.
     Mr. Hirsch. And I think the volunteer fire service has 
done much of the same as far as following the guidelines. It's 
a little more difficult in volunteer organizations because they 
are pretty much standalone and don't have a whole lot of 
organization with--other than Illinois where MABAS exists, but 
a lot of us don't have that.
     Mr. McGhee. I'm not aware of any formal programs in the 
area that I serve, but we are certainly open to the idea and 
further discussion on that issue.
     Mr. Lipinski. All right. One other question I wanted to 
ask is, you know, I represent part of Chicago, but I also have 
a lot of suburban areas that have a number of smaller fire 
departments, fire districts. Do you have any--and, Chief 
Ludwig, do you have any suggestions on how these smaller 
departments and districts can remain competitive for these 
grants? Because that's an issue that they are always asking 
about.
     Mr. Ludwig. Sure. So, that's an interesting question, and 
I thank you for the opportunity to address that. Certainly, the 
need to be competitive also is reliant upon the person who's 
writing the grant and their way of enumerating the value and 
the need of getting the grant. And so one of the things that I 
think would help is some type of grant-writing program or some 
type of process of which they can be schooled in how to write a 
proper grant because it is under a peer-review process by which 
our individuals within our own profession review this. So, if 
it's not well-written, if it's not well-articulated, if it's 
not well-spelled out, that grant, even though it may very well 
be needed, may go and be rejected. So, I would recommend some 
type of program to help those who are writing those grants.
     Mr. Hirsch. That also highlights the need for keeping the 
25 percent set-aside for volunteer fire departments, too. You 
know, most of these people that are preparing grant 
applications, they are people who work in the grocery store and 
people who work in the farm implement dealerships and they 
don't have a whole lot of time to do this, but they do it out 
of love for their neighbors and their communities. And keeping 
that set-aside is very important to the volunteer service.
     Mr. Lipinski. Very good. Thank you. I yield back.
     Chairwoman Johnson. Thank you very much. Mr. Weber.
     Mr. Weber. OK. Thank you, Chairwoman. I appreciate that.
     Lots of questions. I know there's been some talk about the 
inability to get PPE. Of course, we're dealing with a pandemic 
that some of you all talked about earlier we've never seen 
anything like this before, and so it was really interesting to 
get caught in this predicament.
     You've got the Federal Government of course, you've got 
the State governments, and then you've got local governments. 
One of the lessons I hope we learn, and I'll let our witnesses 
weigh in on, is the fact that we need a very, very good 
relationship between the Federal Government, between the State 
governments, and I would argue the State governments in this 
instance more for the protection of their citizens because 
they're closer to the cities, closer to the counties, and 
closer to, you know, the effects that are happening in their 
particular State.
     We reached out to the Texas Department of Emergency 
Management to see that they had a very, very good supply of a 
lot of this equipment. And, unfortunately, I think the smaller 
communities weren't able to reach out, and even some of the 
medium communities, some of the agencies weren't able to reach 
out and deal on a level where they can get enough PPE because 
they were probably satisfying some of the larger communities. 
But I hope that we all learned a lesson in that we have a 
better supply chain or communication chain or process where we 
go at least especially from the States to the counties to the 
cities.
     To the witnesses, are you all seeing that now? Steve, 
let's start with you.
     Mr. Hirsch. Certainly, the--early on in this, the supply 
chain was pretty weak. The folks that we would normally buy 
stuff from, those supplies were gone, and then they became 
rather expensive. I don't know that it's as major of a problem 
out in my part of the country as it has been simply because we 
just haven't had the COVID cases in this part of the world.
     But, you know, I think going forward one of the things 
that's going to be important is at least in my own county, 
supplies that we bought 10 to 15 years ago then became outdated 
because no one was really watching for it to make sure that 
those items were kept up-to-date. And I think that's going to 
be important for us going forward is to make sure that--you 
know, that we have a turnover of those supplies on a regular 
and periodic basis.
     Mr. Weber. Right, good point. How about you, Chief Ludwig?
     Mr. Ludwig. So, I'll echo what Steve said. And, quite 
frankly, there were a lot of issues early on. I talk to Fire 
Chiefs who were buying raincoats and ponchos or whatever they 
could get because they couldn't--they needed something to 
protect their firefighters. And the strategic national 
stockpile was depleted early on of PPE.
     And one of our concerns and what we saw and what I heard 
from a lot was what was coming from the Federal Government into 
the States and going into their caches of supplies was being 
re-prioritized. Firefighters were not in the priority chain. 
Healthcare workers, home healthcare workers, people in the 
hospitals were they priority, and I know several Fire Chiefs 
had conversations with State officials who outright told them 
that you're not the priority. And that was disconcerting 
because, quite frankly, when we saw all the wonderful work that 
was being done on TV by nurses and doctors in the hospitals, 
how those patients got there was through the fire service. So, 
we were in contact----
     Mr. Weber. Absolutely.
     Mr. Ludwig [continuing]. With those patients. And so 
somewhere along the line at the State level they re-prioritized 
us. I know one particular State the--they received 2.9 million 
at that point N95 masks, but a Fire Chief told me with a rather 
large department of 16 stations that he received 40 of those 
masks, 4-0, and so that was disconcerting. And so somewhere 
there's a breakdown when it comes from the Federal Government 
to the State.
     And if I could just take one more second to say that, you 
know, when we--when the Federal Government allocates funding 
for highway transportation, there's conditions attached to 
that. And I am of the opinion that somewhere in the future if 
the Federal Government is going to issue PPE to States, there 
should be some type of conditions attached to that, and that is 
that firefighters are a priority also.
     Mr. Weber. Well, thank you for that. And Sandy, I'm going 
to jump over to you.
     Mr. McGhee. OK. Thank you for that. I don't have much to 
add other than what Gary and Steve have said other than the 
IAFF has identified the priority of firefighters as being an 
issue and has been working with Congress and Members of 
Congress to raise that level of priority. And you're 100 
percent correct. That lack of priority in the supply chain 
process caused a lot of issues early on. And even there are 
still some of those supply chain issues today but not as bad as 
they were simply because of a priority. And that's why I think 
that it's important, as you said, that we have a better process 
identified in the eventuality that this happens again or as we 
continue to deal with this pandemic.
     Mr. Weber. Well, thank you for that. I'm going to close by 
saying it's going to happen again. I think we're expecting it 
to come back around for round two in the fall, and thank you 
all for what you all do. I hope [audio malfunction] obviously 
to the priority level that you need to be and all the first 
responders, police included, and especially our hospital 
workers, them included, and healthcare workers. And even in 
some of the nursing homes and stuff. So, thank you for what you 
all do. And I'm hoping that this is all greatly planned out for 
perhaps round two coming up in the fall.
     And with that, Madam Chair, I'm going to yield back.
     Chairwoman Johnson. Thank you very much, Mr. Weber.
     Ms. Bonamici is recognized.
     Ms. Bonamici. Thank you so much, Chairwoman Johnson and 
Ranking Member Lucas, and thank you to our witnesses.
     We know that the funding from the CARES Act was so 
desperately needed but certainly not enough. Here in Oregon 
we're worried about understaffed fire departments and 
firefighters dangerously exposed because of a lack of PPE. I'm 
glad we're talking about this issue. My State is already 
operating, according to the Oregon State Firefighters Council, 
about 1,200 firefighters below recommended staffing levels. And 
here in northwest Oregon our Tualatin Valley Fire and Rescue 
has already paid close to $1 million for PPE and sanitation 
supplies. They've applied for a supplemental AFG grant under 
CARES, but even if they receive the full amount, it won't even 
cover half of that.
     Chief Deric Weiss told us that they're preparing for a 
possible resurgence in the fall. It's extremely difficult when 
they're still trying to figure out how to cover the expenses 
that they've already incurred.
     I want to start by saying I share Ms. Lofgren's comments 
and concerns about the match requirement, but, Mr. McGhee, even 
as supply chains start to normalize, are you concerned that 
departments might not be able to purchase adequate PPE because 
of a limited funding, and do they have access to some best 
practices regarding how to distribute supplies of PPE when we 
have unpredictable need over an uncertain period of time?
     Mr. McGhee. Certainly. The supply chain, the availability, 
and the cost of PPE is important, especially for these 
locations that we're talking about that are already cash-
strapped. And this reality that we're living in where personal 
protective equipment and the costs have been marked up is just 
unacceptable, and we would hope that those issues are able to 
be addressed as we move forward into the--into our ability to 
respond.
     Ms. Bonamici. We all certainly hope that, and I know here 
in Oregon, as well as many places, there are some really strong 
price-gouging provisions that can be enforced, but we need to 
make sure that all our firefighters have access to PPE, as well 
as all of those frontline workers. It's so important.
     I want to just follow up a little bit on the conversation 
that we were just having in response to Mr. Weber's comments 
about how firefighters and emergency medical personnel are 
really the prehospital healthcare providers and often the first 
workers in physical contact with infected individuals. And we 
know COVID-19 is disproportionately affecting African-
Americans, Latinx community, people with underlying health 
conditions, and also people over the age of 65, so I'm going to 
start, again, with Mr. McGhee but then ask the others as well, 
what is being done to help make sure that emergency care needs 
of these communities are met? And does funding through the fire 
grants program help to meet these specific needs and urgent 
care required of these high-risk communities?
     Mr. McGhee. Certainly. Certainly, AFG and grant money, as 
it applies toward the purchase of PPE, would be utilized in 
those communities as well, in every community. So, the level of 
response and the type of response dictates the level and type 
of PPE that is required, so information coming from our 
dispatchers as we're responding to potential COVID patients in 
high-risk areas is invaluable information for us to have. 
That's why it's important for fire departments and governmental 
agencies to work together so that we can share that information 
and the responders that are going into those situations know 
what they're getting into so that they can then wear the proper 
level of protection. That's the most important thing is 
information so that we know how to prepare.
     Ms. Bonamici. That's great. And, Chief Ludwig or Mr. 
Hirsch, do you want to talk about the importance of this grant 
funding to meeting the needs of those particularly vulnerable 
communities?
     Mr. Hirsch. Well, I'll just add that what's so imperative 
is the SAFER funding. As I like to say, there's no 912 on the 
phone dial. After you dial 911, if no one shows up, there's no 
one else to call. So, it's so important that we have people in 
our communities able to respond to those that are in need, 
those that are disadvantaged, those who are at high risk. As we 
projected, we're looking at the potential of 30,000 
firefighters being laid off over the next year. SAFER funding 
would help that. We're not asking for additional firefighters. 
We're just asking to retain those that we currently have 
through that SAFER funding.
     SAFER would also help volunteer fire departments in the 
fact that they could use that for recruiting and retaining 
firefighters. So, it's so important that the SAFER funding be 
there to respond to those that are in need and those that are 
disadvantaged, as you asked.
     Ms. Bonamici. Well, and I know, Mr. Hirsch, in your 
testimony, you talked about the issues of recruiting and how 
that's really challenging because of the physical distancing 
and restrictions on gatherings, so how is recruiting going?
     Mr. Hirsch. Well, you know, we have got significant 
problems in the number of volunteers all across the Nation, 
anecdotally and statistically speaking. This certainly isn't 
going to help that. We've seen a decline in the number of 
volunteers over the past 20 to 30 years, and this is going to--
we've taken 2 months out of the process here of being able to 
recruit people.
     But I will tell you, too, that fire departments are--
they're amazing bunches of people who will make do. They'll 
take the lemons and they'll make lemonade out of it. We 
recruited people during the pandemic. We were doing--in my 
little rural fire department in very rural, remote Kansas, we 
were doing Zoom meetings every week in lieu of doing in-person 
meetings, and we actually recruited people in that fashion. 
There's ways to do it, but certainly we have to--recruiting is 
one of those 24/7, 365. You ever get behind the curve in the 
volunteer service, it's all over because we--you always have 
people coming and going, and you've got to keep them coming in 
the front door all the time.
     Ms. Bonamici. [audio malfunction] and I have rural 
firefighters here in northwest Oregon----
     Mr. Hirsch. Sure.
     Ms. Bonamici [continuing]. And I really appreciate the 
need to recruit and make sure that we can keep all of our 
communities safe. Thank you for all the work you do. I yield 
back, Madam Chair. Thank you.
     Chairwoman Johnson. Thank you very much. Mr. Babin.
     Mr. Babin. OK. Thank you, Madam Chair.
     And I just want to say thank you to all three of our 
witnesses for being here with us today, and a special thanks to 
our first responders, in this case, our firefighters. I have a 
tremendous amount of respect for the work that these men and 
women do every single day to keep us safe.
     And as a Representative of southeast Texas, I am too 
familiar with the dire circumstances that many firefighters 
find themselves working in during hurricane season, and that is 
storm rescue and recovery. My district from the eastern suburbs 
to the Louisiana State line continues to be hit by 200-year 
floods and record rainfall. I have a number of volunteer fire 
departments, one of which is Pasadena, Texas, of which is 
probably one of the largest if not the largest single 
municipality volunteer fire department in the country.
     But when these hurricanes hit, firefighters and first 
responders are always there no matter the condition. We're 
entering into yet another hurricane season. One tropical storm 
just came through last week in Louisiana. They've got to have 
the resources they need to respond to these disasters if they 
do happen. And it's not a matter of if; it's a matter of when.
     And so my question to all three of our witnesses here 
today is simply this. What is needed to better prepare our 
firefighters for hurricane season, and what does the current 
resource cache look like for disaster preparedness across the 
country and specifically in our State of Texas? Thank you.
     Mr. Ludwig. I'll----
     Mr. Babin. Yes, sir, go ahead.
     Mr. Ludwig. I'll go ahead and tackle that as best I can. I 
don't know specifically how your cache of supplies looks like 
in Texas, but I do know that one of the most valuable resources 
that the fire service has during the hurricane is our USAR 
(urban search and rescue) teams, the Urban Search and Rescue 
teams. There's 28 of those teams that are federally funded 
around the country. I don't know the number that's in Texas, 
but it just wouldn't be Texas where they would pull those teams 
from. They would pull them from Memphis. When I worked in 
Memphis, Memphis has one of those Federal teams. They have 
teams in California, Arizona, Florida. I know that the team in 
Memphis was pulled down during Hurricane Katrina and some of 
the other like Wilma and Rita.
     So, it's so important federally--it's so important that 
federally those teams are supported not only financially but 
also administratively, and so--because those additional 
resources are truly needed during a hurricane or some other 
cataclysmic event like that.
     Mr. Hirsch. But I don't know that I can necessarily 
address hurricanes either being a flatlander out here in the 
middle of Kansas, but certainly the same types of thoughts go 
through my mind and went through my mind when we first started 
into this because we're in Tornado Alley. And it--while it's 
certainly not necessarily to the degree of a hurricane, it is 
something that we sit down and plan for as well, how do we 
handle those type of natural disasters in the event that we're 
still in the middle of COVID-19 response? It's a difficult 
thing to plan for.
     Mr. McGhee. I'm a little familiar with the hurricane 
response in Texas. I've responded and been there in the State 
for every hurricane that's been--come across Texas since 2004 I 
believe. One of the biggest issues in relation to hurricane 
response and disaster preparedness certainly is equipment and 
people. Those are the two biggest things that we need. 
Organizationally, the IAFF has a disaster relief program where 
we can assist firefighters and others as they come out from 
under the storm response, but one of the issues that we've 
found is communication with existing State agencies, we're an 
organization that has resources that are available, and the 
State has resources that are available, and coordinating that 
is a bit of a challenge. So, I see that as something that 
really needs to--that we need to work on as we coordinate all 
of our relief efforts during these kinds of storms.
     Mr. Babin. OK. Well, those are all great answers, and I 
want to say just how much I appreciate and how valuable that 
our volunteer fire departments and EMS folks are to this 
country and especially in my district, so, with that, Madam 
Chair, I'll yield back and say thank you very much.
     Chairwoman Johnson. Thank you very much. Mr. Bera.
     Mr. Bera. Thank you, Madam Chairwoman, and thank you to 
the witnesses for your service to our country and to your 
communities.
     I know the Chairwoman brought up the issue of mental 
health, as well as my colleague from California Ms. Lofgren, 
and, you know, one of the approaches we've had in pre-COVID 
working with IAFF and IAFC and the local departments was this 
bill that we put together, the HEROES Act, Helping Emergency 
Responders Overcome, and it really was looking at piloting 
programs within stations to create peer support and individuals 
within each stationhouse that could proactively reach out to 
firefighters and first responders, as well as be a confidential 
resource. So it's something that they're entrusted with that 
they worked with in creating kind of a train-the-trainer 
program in these firehouses that--I'm actually--have my staff 
send that bill around to each of the offices, but it is 
endorsed by IAFF and IAFC and developed--and it's a good, smart 
approach that in a confidential way gives some of these first 
responders an ability to reach out and talk about what they're 
seeing on the job.
     And we really have seen an uptick pre-COVID in the level 
of stress with our firefighters, you know, the number of 
suicides with firefighters, and it's because we're asking them 
to do much more. You know, I see it here in northern California 
where, you know, we've now had disastrous forest fires that are 
the norm, and you're asking folks to combat those fires, you're 
asking folks to continue to work overtime hours and, you know, 
again, that does take its toll.
     Layer in COVID-19 and, you know, what we're asking our 
firefighters to do and our first responders to do and what 
they're actually seeing, you know, it's just going to create an 
additional level of stress, so anything we can do to address 
the hidden epidemic of mental health and stress and suicide 
with firefighters, I think it does behoove us to push those 
resources out to the departments because at a time when we need 
those first responders and firefighters, you know, we can't 
have them going down or having them, you know, just having to 
deal with this enormous stress.
     One of the areas that, you know--and maybe Mr. McGhee, 
since we work with IAFF, if you want to talk a little bit 
about, you know, some of the hidden stress and strain that your 
members are seeing.
     Mr. McGhee. Sure. Thank you very much, Representative 
Bera. I appreciate your leadership on this issue. It's 
important. It's an important point for us getting people to 
talk about their internal struggles and stressors and triggers 
that make their behavior somewhat out of the norm is a 
challenge in and of itself regardless of a pandemic type of 
situation.
     The IAFF has peer support--a peer-support training program 
where we train firefighters to recognize issues about 
behavioral health from their peers and their coworkers, and I'm 
sad to say but happy to report also that it's our most 
productive and most requested type of training because this is 
a real issue in the fire service. Just recognizing it and 
getting people to talk about it is a huge obstacle, and then 
once we talk about it, having these kinds of programs and the 
resources available to direct our members to get them the help 
they need is really important.
     And in light of the COVID pandemic, one of the things that 
we have been doing is offering an online peer-to-peer support 
program and training program, and that is a result of your 
leadership and the issues that we're facing in trying to 
address during the pandemic.
     Mr. Hirsch. Yes, Congressman, if I may, one of the unique 
things about the volunteer fire service of course is that these 
are neighbors helping out their neighbors in their worst 
possible time, which also means that the folks that we're 
responding to their incidents are probably people that were 
related to or neighbors to, we go to school with, we've--we're 
in Sunday school with them, we teach them in Sunday school, and 
that adds an additional layer of stress to the volunteers.
     But I also think the volunteer fire service has stepped up 
to the plate on this. The 10-33 Foundation, which I believe is 
actually headquartered in California, has been--at least in my 
State anyway has been very giving of their time and resources, 
and they've helped out volunteer firefighters across this 
country. And then the National Volunteer Fire Council with our 
Share the Load program where volunteers have the ability to 
call a toll-free number to reach assistance from fellow first 
responders and then referred out to other professionals. And in 
fact we just came out--I think--I don't know whether it's even 
out yet, a reference book of professionals in the mental health 
field across the country so that we can put that in the hands 
of Fire Chiefs so that they can provide that support to their 
local volunteers, very, very big topic.
     Mr. Bera. It's incredibly important. I see I'm out of 
time, and, Madam Chairwoman, I will yield back.
     Chairwoman Johnson. Thank you very much, Mr. Bera. Is Mr. 
Baird there?
     Mr. Baird. Yes. Yes.
     Chairwoman Johnson. OK.
     Mr. Baird. Thank you, Madam Chair and Ranking Member 
Lucas. We appreciate the opportunity to be on this call and 
certainly appreciate all that the firefighters and first 
responders do. So, I really want to add my support to the 
expressions of appreciation in that regard and especially what 
you've done during this pandemic.
     I guess my question, I live in a predominantly rural area 
of west central Indiana, and so my questions deal with the 
aspects that impact those rural fire departments. And I guess, 
Steve, I might start with you. You mentioned the 25 percent 
set-aside for volunteer fire departments. You also mentioned 
that in some ways these rural fire departments might be 
disadvantaged, so would you care to comment on that?
     Mr. Hirsch. Well, sure. Again, the--you know, the 
volunteer fire departments, these are the people in your 
community. They don't have full-time staff to be able to apply 
for grants, and so these are people who are giving even more of 
their time, not just responding to calls but now raising money. 
And I guess it's not just those people who are doing grants. In 
many fire departments those are the people who are doing the 
bake sales, who are doing the pancake feeds, week in and week 
out, in order for those departments to even have money to be 
able to respond on a regular basis, let alone to have to 
respond to COVID-19 calls, very unique. That's why maintaining 
that 25 percent set-aside for volunteer fire agencies are very 
important.
     Mr. Baird. I might add that some of those pancakes aren't 
really bad either. I mean, they do a pretty good job.
     Mr. Hirsch. That is correct.
     Mr. Baird. I'm vulnerable to that. Anyway, Gary, would you 
mind commenting? You mentioned something I think in your 
testimony about not having access or having shortages of some 
of the medical medications. Could you clarify that so I make 
sure I understand what you were talking to or making reference 
to there?
     Mr. Ludwig. Yes. Yes, Congressman. There are certain drugs 
that we require that we use, and we use those in advanced life 
support procedures. And, quite frankly, this drug shortage has 
gone on for at least 10 to 12 years that I know of. You might 
have the FDA that stops a line based on some type of quality 
issue. You might have a drug company that decides that they're 
not making a profit on this type of drug, so they'll switch 
their line to another type of drugs. And so we've seen this 
drug shortage for an extended period of time.
     And then when the COVID-19 hit, it really exacerbated the 
problem quite frankly, and so critical drugs that we need for 
the--for instance, the--as we sedate patients because that--
those drugs were also needed for the ventilators that were 
being used in the hospital, and we needed that same type of 
drug to sedate our patients. But we've seen--experienced drug 
shortages for quite a long period of time, including critical 
drugs that we need to give patients such as glucose, 
epinephrine, and other types of drugs.
     Mr. Baird. So, maybe we need to coordinate that with the 
PPE to make sure you have access to that and on a regular 
basis.
     Mr. Ludwig. Yeah, there's--yes, that's correct, and 
there's just a multitude of issues that complicate that, 
including us not even receiving notice from some of the drug 
manufacturers that they're shutting down a particular line and 
all of a sudden we have a sudden disruption of that supply 
chain, so there needs to be some type of advanced notice of 
that.
     Mr. Baird. So, Madam Chair, I can't see my clock, but if 
I've got another minute, I do have another question or two.
     Chairwoman Johnson. You can ask another question.
     Mr. Baird. Thank you. So, Sandy, on the protective PPE 
equipment and so on, are there additional things that you think 
we need to help protect firefighters? I mean, we've already 
discussed how many times they're the first ones there and 
interact in close proximity to some of these people you go take 
care of, so, Sandy, I'm asking you if you've got any additional 
thoughts there of the kind of equipment that maybe we don't 
have or if what we are providing is adequate.
     Mr. McGhee. I think, Congressman--thank you for the 
question and the opportunity to respond. I think the important 
thing is the equipment for sure, but I also think that the 
experience of the first responders, firefighters, Fire Chiefs 
that have already developed some protocols and the experience 
that they have obtained during this initial pandemic response 
is going to be important as we go forward. All of the money 
that is allocated by Congress in AFG and SAFER, to be quite 
frank, is appreciated but it's simply not enough. And the type 
of equipment that we need, the supplies are short to begin 
with, and being able to plan and develop our request and our 
needs early on is important, and that's why this funding is so 
important. People and equipment are the two most important 
things that we have as we try to deal with this response.
     So, I'll defer to others that have more expertise in the 
type of equipment that we need, but personal protective 
equipment is the most important thing.
     Mr. Baird. Well, thank you very much. And the clock I see 
now shows that I'm out of time. I yield back.
     Chairwoman Johnson. Thank you very much. Mrs. Fletcher?
     Mrs. Fletcher. Thank you very much, Chairwoman Johnson, 
and thank you to all of our witnesses for being here today and 
for your testimony. It's been very helpful, and I join many of 
my colleagues--all of my colleagues who have commented about 
the importance that fire departments in all of our districts 
and our appreciation for your critical work. My own brother-in-
law is a volunteer firefighter here in my district, and I've 
seen firsthand the critical role that our firefighters play in 
our community.
     Of course, I am here in Houston, so we also see the vital 
work done by the Houston Fire Department, a rather large 
department across my entire district, every day, including just 
this morning when we had an explosion in the middle of the 
night and our firefighters are on the scene responding to right 
now.
     So, one of the things that we see here pretty constantly 
and I think, Mr. McGhee, you touched on it in your testimony 
and, Mr. Ludwig, you just mentioned this as well--is kind of 
the critical role that the EMTs are playing in the fire 
departments in rendering medical aid and also in transporting 
patients with COVID-19. And I think in your testimony, Mr. 
McGhee, you mentioned that firefighters and emergency medical 
personnel are prehospital healthcare providers, often the first 
workers that are in physical contact with infected persons.
     And I think, Mr. Ludwig, you mentioned that as well when 
we were talking about PPE and how important it is.
     So, following up on my colleagues' questions on that 
issue, I would be interested if you could just share with us a 
little bit more about that role and how that is affecting your 
department as well, just--of course, we all anticipate the--
responding to the fires, but what I think I read in your 
testimony, Mr. McGhee, was that the National Fire Protection 
Association reported that 64 percent of fire department 
responses in 2018 were actually medical calls.
     So, can you talk a little bit about the breakdown of 9-1-1 
emergency medical responses? Has that changed during the COVID-
19 pandemic? Are you seeing more, are you seeing less? And then 
what are you doing or what do you think you should--you need 
more help to be able to do to protect your firefighters and 
EMTs from the virus, whether it's additional trainings, other 
things? I'd love to hear from everyone on kind of that role 
with the time that I have left, which is about 3 minutes.
     Mr. McGhee. Thank you for the question. I'm not aware that 
the response percentages have changed since the pandemic, but 
I'm also not--I haven't viewed any of the latest reports, so I 
don't really know. And as I believe the Chief said earlier, you 
know, fires and other types of calls that firefighters respond 
to haven't stopped simply because we're in a pandemic--and I 
shouldn't say simply--because of the pandemic. So, the 
percentages I'm not sure have changed. It wouldn't surprise me 
if it's a little more elevated as far as EMS response goes.
     What we found in Houston is not--I don't want to bring up 
a sore subject, but what we found is a battle between our 
firefighters and the city of Houston in relation to PPE. Our 
leadership for Houston firefighters has had to go to great 
lengths to identify for the city administration their own 
ability to utilize funds that have been allocated for the city 
of Houston from the Federal Government and to buy the proper 
equipment. We're talking about a lack of gloves, face shields, 
body isolation suits, the Tyvek suits that I was referring to. 
And for a city of four million people, that's a real problem.
     And so what we would like to see is the availability of 
the revenue without the waivers for AFG to make it easier even 
for a city like Houston with their vast resources to be able to 
purchase the appropriate equipment for firefighters and 
responders.
     And the other part that I'd like to leave you with is our 
firefighters actually partnered with the Department of Health 
in Houston to check on the well-being of nursing home patients, 
and they did that on a voluntary basis. And they did that also 
knowing that they might not have the appropriate level of PPE.
     So, we're all in. We're ready to respond to our 
constituency so to speak. And having that AFG funding without 
the waivers is going to help us do that.
     Mrs. Fletcher. That's helpful. Thank you.
     Mr. Ludwig, would you like to weigh in?
     Mr. Ludwig. I'll kind of echo what Sandy said. And the 
waivers are so important that they need--they need to be 
waived. In my own community here in Champaign, Illinois, we've 
lost significant revenue with sales tax money. We're the home 
of the University of Illinois, and when you send 55,000 
students home and they stop buying the pizzas and all the other 
things that college students do, we have a lack of sales, 
money, revenue coming in here, sales tax money revenue coming 
in. So, I don't have the extra abundance of money in my budget 
to go ahead and pay for those matches, so it's so important 
that that be waived. And, again, we recommend wholeheartedly 
that be done through a direct program from the Federal 
Government directly to the fire departments.
     Mrs. Fletcher. Thank you so much for that. I know that 
these are important priorities, and we were talking about the 
HEROES Act, how we can help, how we can get direct funding, how 
we can address a lot of these issues, and so I'm optimistic 
that your testimony here today will be very helpful in us being 
able to move that forward.
     I see I have used up all of my time, so I thank you very 
much for your participation and your comments here today. And, 
Madam Chairwoman, I yield back.
     Chairwoman Johnson. Thank you very much. Mr. Balderson.
     Mr. Balderson. Thank you, Chairwoman Johnson, and thank 
you for holding this hearing today. And thank all our panelists 
here, and thank you very much, as everyone said, for your 
service. I'm very grateful for everything that you all do.
     My first question is for Mr. Hirsch. You mentioned that 
you have concerns with legislative solutions that disadvantage 
rural and volunteer fire departments. I have heard from 
volunteer departments throughout this crisis and know that they 
face unique challenges. Could you elaborate on what Congress 
could do legislatively that would help these departments to the 
same extent that it helps all other types of fire departments?
     Mr. Hirsch. Sure. You know, when the FIRE Act grant 
program was first started, there was a considerable larger pool 
of money that was put into those programs, and what you see is 
when the pie gets smaller, it gets a lot--the pieces get a lot 
smaller for people. And that's part of what's happening at the 
volunteer fire service is that, as the pie got smaller and the 
pieces got smaller, some departments just flat gave up applying 
because they would try a year or 2 or 3 years in a row and be 
turned down, and then they finally decided it's a waste of 
their time to do that.
     Chairwoman Johnson. Mr. Balderson, can you turn your 
camera on?
     Mr. Hirsch. I'm sorry.
     Chairwoman Johnson. OK. We see you.
     Mr. Hirsch. OK. So, you know, when you take the pie and 
you make it smaller and then you cut the pieces even smaller, 
it makes it very difficult for volunteer fire departments, and 
that's why it's so important to keep that 25 percent set-aside.
     You know, I would add, too, that one of the unique 
challenges--and I--and I've mentioned this before of volunteer 
especially EMS agencies I think even more so than our fire 
agencies, you know, I've got a county that you have got 10 or 
12 people who are volunteering their time to protect the health 
of their community. It takes only one or two of those to 
contract COVID and the entire agency is shut down. They're 
covering 900 square miles as it is. How are you going to be 
able to provide EMS service in that community to those people? 
That's why it's so important to protect the health of our 
personnel.
     Mr. Balderson. OK. Thank you very much.
     Mr. Hirsch, I'll have you do a follow-up here. And one 
issue that has struck out to me is that various types of 
departments are handling widely different challenges. Given the 
expertise we have testifying today, could each of you, and, 
like I said, I'll start with you, Mr. Hirsch, tell us what you 
feel the biggest challenge is for your respective organizations 
and how we can work together to find a solution that supports 
all types of fire departments? Thank you.
     Mr. Hirsch. Our biggest challenge is financing, and, as I 
mentioned in my testimony, that--we've got to put more money in 
this program because that's the only solution. And we've got--
departments have to know there will be departments in your 
State that will survive entirely upon fundraisers and they're 
unable to do that. And that's going to have the spinoff 
effects. It's not just the response to COVID but now they can 
no longer have the money in the bank to be able to provide 
equipment for responding to structure fires. They can no longer 
upgrade the fire truck that they need to upgrade, and then 
they're making choices about whether or not to pay utility 
bills or insurance. This is a big issue. And the only way that 
that's going to be handled is with proper financing.
     Mr. Balderson. Chief Ludwig, would you like to follow up?
     Mr. Ludwig. Yes, I pretty much echo what Steve just said, 
but I just want to add that financing is so important. My own 
budget has been decimated with overtime. It's been decimated 
with the supplies we had to buy. I talk to Fire Chiefs all over 
the Nation all the time. I talked to a Chief yesterday in New 
England, and he told me he's already cut his budget 10 percent, 
but in order to cut his budget 10 percent had to do another 10 
percent coming. I've talked to Fire Chiefs who were told to cut 
5, 10, 15, even 20 percent of their budget because, one, we've 
expended our overtime budgets. I've expended my overtime 
budget. And now we have an economic downturn which shut down 
the economy where municipal governments rely and fire districts 
rely on that revenue coming in from taxes, and that's been 
gone. And so--and again, that is the biggest component that I 
might add, and I would just simply stand by what I said with 
the financing issues.
     Mr. Balderson. All right. Thank you. And, Madam Chair, I 
yield back.
     Chairwoman Johnson. Thank you very much. Ms. Stevens.
     Ms. Stevens. Thank you, Madam Chair. This is an incredible 
hearing, and what an honor to be with Chief Ludwig and Mr. 
McGhee and Mr. Hirsch. I have learned so much from all of you 
so far.
     As you may know, Congresswoman Tlaib and Senator Gary 
Peters have taken actions around addressing the waiver 
requirements particularly for SAFER grants, and this is 
forthcoming legislation in the House through Congresswoman 
Tlaib, relief for local firefighters, departments during COVID-
19 act. We are so proud of our fire departments here in 
Michigan and the way that they have stepped up in this 
pandemic.
     I think back to last summer being with my friend Bill 
Strubbe, who runs the Plymouth Township Fire Department, Ken 
Chapman at the Highland Department for fires, and the 
technology, the innovation, that's what we do here on the 
Science Committee. And what goes into those trucks and the--you 
know, you're doing things so quickly and you need to know where 
everything is and it's standards and it's great operations, and 
these SAFER grants and the AFG grants frankly are just so 
critical for us being able to execute.
     And Commerce Township in particular, my colleague Township 
Supervisor David Scott with his fire department, we got him a 
big SAFER grant, Auburn Hills, big SAFER grant, Rochester 
Hills, big SAFER grant, but let's just talk about--and, Mr. 
McGhee, maybe you could kick us off. Can you just discuss for 
me the importance of ensuring that our fire departments are 
adequately staffed and the role that SAFER grants have in 
ensuring that with the safety and what this waiver 
requirement--you know, do you think it is necessary, and if so, 
why or why not?
     Because, you know, what we want to get at is we did this 
in HEROES. We did a part of it. We've got forthcoming 
legislation, and we just need to get you guys--we need to get 
you the best technology possible. So, we'll start with you, Mr. 
McGhee.
     Mr. McGhee. Well, thank you very much for that question. 
And you're correct that the technology is very important, but 
also what's important are people. It takes people to put out 
fires. It takes people to do CPR (cardiopulmonary 
resuscitation). It takes people to respond to car wrecks and 
every other disaster or situation that firefighters respond to, 
so people and personnel are really important. And the number of 
personnel is important. And----
     Ms. Stevens. Which is why I know my firefighters. I live 
up the street from one, my home station.
     Mr. McGhee. Very good. I'll bet [audio malfunction] all 
the time. There are--there is quantifiable evidence that has 
been produced by the Federal Government to show the proper 
number of personnel or people. The number of firefighters that 
it takes to do every job that we have whether it's pulling a 
hose, whether it's spraying water, whether it's doing CPR, 
whether it's administering drugs, there is a quantifiable 
process that we have gone through to show the proper number of 
people. And the fact of the matter is, the fewer number of 
people that we have, the less work gets done, the less safe the 
work is, and the less efficient we are, so the waivers are 
important for SAFER so that we can retain firefighters and 
rehire firefighters.
     And I might be going out on a limb here, but we don't 
think that a lot of fire departments are going to be hiring 
firefighters in the future simply because of the economy that 
we feel like we're going to be in and already are in. So, the 
waivers to allow for the retention and rehire of firefighters 
that are laid off is the most important thing but also the 
equipment that we get from AFG. So, it's not an either/or 
situation. It's both of these programs working hand-in-hand for 
this kind of a response.
     Ms. Stevens. Fabulous. Chief Ludwig, did you want to chime 
in at all?
     Mr. Ludwig. I'll just say I--again, I echo what Sandy is 
saying, and I use the illustration of the three-legged stool. 
So, you have the people, you have the equipment, and then you 
have the procedures that you do adequately within a reasonable 
amount of time, you're going to have success stories there. If 
you remove one of those legs, the stool falls over, so it's so 
important and so imperative that we have the proper funding for 
people, the proper funding for equipment, and the proper 
training to do the things that we do, which we take care of the 
training. We just need the people and the equipment and we need 
the funding for that.
     Ms. Stevens. Training, training, training. With that, 
Madam Chairwoman, I got to yield back. I'm over time. Sorry, 
Mr. Hirsch, but thank you all. This is just a spot-on hearing 
for all of us today.
     Chairwoman Johnson. Thank you very much. Mr. Olson.
     Mr. Olson. Good afternoon, everybody. Thank you, Chairman 
Johnson, and thank you to our three witnesses.
     I hail from Texas-22, the suburbs of Houston, Texas, 
southwestern suburbs. I'd like to follow up on the line of 
questioning from my colleague Brian Babin about hurricane 
season. As you all probably know, it started on June 1st, so 
just 12 days ago. Not surprisingly with the current situation, 
we had two storms develop before June 1st. We had Tropical 
Storm Arthur and Tropical Storm Bertha. Arthur formed on May 
16. Bertha formed on May 27. We also had Tropical Storm 
Cristobal, which hit New Orleans and actually went up all the 
way through Wisconsin, the first time a storm has done that 
ever and the first time a sea storm happened before June 2nd.
     So, my question to all you all is about a Federal program. 
It's called the 1033 program. And this is a program that's very 
important to local communities, local fire departments, local 
first responders. It's a program that allows a local entity 
like a city, a fire department, a police department, a first 
responder to buy surplus de-armed military vehicles. These 
vehicles are worth nothing to DOD (Department of Defense). 
They're de-armed. And the only weapons these things can have is 
basically someone goes to their local Whataburger, gets a 
straw, and has a spit wad. That's all these things can do.
     And these things are very important for local communities 
to have during hurricanes. For example, Hurricane Harvey hit in 
2017 a big town in the district called Pearland, which is about 
130,000 people, had three firetrucks get flooded out. They had 
to send them out on runs to rescue people. They did that 
knowing they'd flood their back, but then all those electronics 
are corroded. They are problems of the future.
     This program has some controversy, but again, it's very 
valuable to our local communities. So, I'd like all of you to 
discuss how important the 10-33 program is to have you guys do 
your job in times of hurricanes, river floods, disasters, 
fires, whatever. And let's start with Mr. McGhee.
     Mr. McGhee. Thank you for the question, Congressman. I 
have no experience at all with the 10-33 program, and I 
wouldn't feel comfortable commenting on it. It sounds like it's 
something that we need to learn more about.
     Mr. Olson. OK, thank you. Mr. Ludwig, Chief Ludwig.
     Mr. Ludwig. Thank you. I have no knowledge of the 1033 
program either. I do know that the IAFC has a software program 
that we're trying to get States to buy and be a part of that's 
called NMAS (National Mutual Aid System), and it deals with 
natural--national mutual aid, and so we use Juvare software and 
ESRI software, and so we share those resources where resources 
can be shared if you don't--if you have a fire truck that's 
flooded out, that maybe you can call for firetrucks from 
surrounding communities by using this type of software program.
     But I have to add I don't know anything about the 1033, 
but hopefully the States all come aboard and use our NMAS 
system.
     Mr. Olson. Mr. Hirsch, third strike?
     Mr. Hirsch. Fifty-seven years ago when my father started 
the fire district in north-central Kansas, they were very 
fortunate to receive a number of pieces of ex-military 
equipment, Deuce and a Halfs, 5-tons, military jeeps. Those 
served as the backbone for the fire service in those 
communities for many years, and they still do to this day. We 
have fire departments all across Kansas, all across America 
that are using excess military equipment to fight fires.
     And personally, for me out here in the plains I've used 
those Deuce and a Halfs and 5-tons to get through snowdrifts 
because they'll go through snowdrifts when other stuff won't go 
through, so very important program.
     Mr. Olson. Thank you so much. One final question, this is 
also about hurricane season. And as you all know, we've had a 
lot of COVID pop up here, 19 in the region mostly in retirement 
homes and senior homes. If those people have to evacuate, once 
again, they won't be welcome, hey, bring COVID right here, stop 
here. So, what are the plans, because you'll be exposed, to 
keep your firefighters if they're evacuating these people 
protected with more gear, and how can we help make sure that 
that's a smooth transition and get them out of harm's way? 
Because it's a big deal. They've got to get out of the area for 
sure the exposed first responders. They may be exposed, so are 
you guys planning for any sort of plans for disasters and 
evacuations of populations exposed to COVID-19?
     Mr. Ludwig. I'll take that question. I can tell you that I 
know that there is a national ambulance company GMR, sometimes 
they're known as AMR, they have a FEMA contract where they have 
1,800 different agencies, EMS agencies around the country on 
contract that if they have to move in ambulances or other types 
of transportation vans into a certain area, they have those 
sorts of resources and they coordinate that for FEMA.
     But even then with those types of resources in place, it's 
still imperative and still important that we protect our 
people, and so it's so important that the strategic national 
stockpile be adequately staffed and stocked, that the supply 
chain be good, and that fire departments that are part of that 
system, that national system also have the proper equipment and 
the funding to buy that equipment.
     Mr. Olson. Thank you. I'm about out of time. And, Mr. 
McGhee, I won't put you on the spot since you work for Texas 
and Oklahoma. How do you come out in the Red River Rivalry, OU 
(University of Oklahoma) or Texas?
     Mr. McGhee. The University of Tulsa. The University of 
Tulsa.
     Mr. Olson. Chairwoman, I yield back.
     Chairwoman Johnson. Thank you very much.
     Which one is next? I don't have the--I know that Mr. 
McNerney and Mr. Foster have been here a long time, but I don't 
know--they haven't told me which one. Oh, Ms. Horn. Is Ms. 
Horn----
     Ms. Horn. Yes, Chairwoman, I'm here.
     Chairwoman Johnson. OK. You're recognized.
     Ms. Horn. Thank you very much, Madam Chair. And Sandy, it 
is great to see you even if it's virtually. I appreciate all 
that you're doing as a fellow Oklahoman. And you should know 
that Mr. Olson tries to stir up the Red River Rivalry all the 
time, and I agree with you as a University of Tulsa graduate, 
but still OU beats Texas, you know, any day. But thank you to 
all of our witnesses here. This is an incredibly important 
subject.
     And, Sandy, I want to start with you if I could. I've had 
multiple conversations just following up on Ms. Stevens' line 
of questioning about the flexibility in the SAFER grant program 
and the AFG program. Speaking with many of our fire departments 
here in my district that have big departments such as Oklahoma 
City and small rural departments across my district and 
volunteer departments and know the importance.
     And in terms of the flexibility, I know that the proposal 
in the HEROES Act gave some flexibility, but the--it strikes me 
that one of the core issues in the need for flexibility is the 
ability to retain. We know that Oklahoma City relies solely on 
sales tax to fund these core services, and in order to avoid 
the loss of critical firefighter capacity, can you speak to the 
most important waivers in the SAFER grant and the AFG grant 
programs?
     Mr. McGhee. Yes, thank you Congresswoman, and it is good 
to see you even if it is via remote meeting, yes.
     The waivers that are most important--well, they're all 
important--but that are most important is of the waiver that 
would allow for the retention of firefighters because, as we've 
already discussed, fire departments and cities are going to 
have, if they're not already experiencing, a revenue shortfall. 
That means they're going to be looking at their biggest cost, 
and that's always people. And, unfortunately, that's the 
reality that we find ourselves in. So, the ability to retain or 
to rehire firefighters that have already been laid off is very 
important.
     Also, the cost-share provision or waiver, if we could--
take for instance the city of Tulsa. The city of Tulsa is in a 
hiring freeze right now. We've already talked a little bit 
about their revenue shortfall. They could apply for a SAFER 
grant. They are going to have attrition in their next budget 
year that they already know is going to occur, but the grant, 
as it's--the rules, as they are currently presented, don't help 
them, so they're just not going to apply for that kind of 
assistance. If we could get that waiver enacted into law, it 
would help cities, and I'm sure there are others around the 
State--if not around the State, around the country--that are 
similarly situated to Tulsa. Those are important. That's the 
flexibility I'm talking about.
     Ms. Horn. Yes, and to follow up on that, the--for our 
smaller fire departments that have 10 or fewer firefighters in 
some cases, the SAFER grants in those cities, could that--is 
that making the difference between whether or not a community 
could retain a professional fire department or literally making 
the difference between whether or not they're continuing to 
keep their fire departments going or not?
     Mr. McGhee. It could. It actually could. The cost 
associated with hiring firefighters and personnel, we all know 
that it's expensive, but we've already experienced furloughs in 
Pauls Valley, furloughs in McAlester, the possibility of 
furloughs and layoffs in Chickasha. And so these are not big 
cities. These are small towns, rural communities in our State, 
and every department regardless of the size or even if they're 
a combo department or a volunteer-only department can all 
benefit from a SAFER program. Recruitment, retention of 
firefighters, that program, the value of cannot be stressed 
enough. So, yes, even small departments in rural communities 
benefit from the program, and we always encourage them to 
apply.
     Ms. Horn. Thank you very much. And I just have a few 
seconds left. I wondered if either of our other witnesses would 
care to comment. Thank you very much, Sandy.
     Mr. Hirsch. I don't think there's anything I would add to 
that. I appreciate that support.
     Ms. Horn. Thank you very much. I appreciate it, and I know 
that I just want to add that mental health, I really appreciate 
Mr. Bera's comments. And I'm about out of time, but the mental 
health component is something I'd like to follow up on as well 
to make sure that we're taking care of our firefighters. And 
thank you all.
     Madam Chair, I yield back.
     Chairwoman Johnson. Thank you very much. Mr. Sherman.
     Mr. Sherman. Thank you. I want to thank the Chair for 
putting together this hearing on SAFER and AFG. I had excellent 
questions, but my excellent colleagues, particularly those from 
California, have asked most of them. Zoe I think had an 
excellent point about the urban wildland interface, and of 
course that's been affected by global warming, and Ami Bera's 
comments about the need to focus on taking care of the 
firefighters who are under such stress.
     I'd like to take just 1 minute. The--not on firefighting 
in particular--and that is the role of the Science Committee 
and science in dealing with this COVID crisis. We are the 
center of support in Congress for support for scientific 
research. Only 1/4 of 1 percent of the money that has been 
enacted so far has gone to research on therapeutics, 
prophylactics, and understanding the COVID disease. Now, great 
work is being done, unprecedented work is being done, but it's 
still only 1/4 of 1 percent of the money, and there are a lot 
of things we could be doing that we're not researching. And 
most of the professional medical researchers are sitting at 
home since all of the other non-COVID research has been 
deferred.
     Also, I serve on the Foreign Affairs Committee just for 
the last 24 years. This COVID disaster is going to hit the 
Third World, has hit the Third World, and the biggest thing we 
can do to help the whole world is through research. So, I'm 
hoping that many people listening to me now will support a 
letter to leadership urging that we defend in negotiations 
and--the $5.5 billion. That's $5.5 billion out of $3 trillion 
in the HEROES Act for COVID scientific research. I know I've 
spoken to the Chairwoman about this, and I'll be circulating 
that.
     As to firefighters, our--this is--they're funded as part 
of local government in most cases. We're going to see--not only 
are the costs higher for the PPE, et cetera, but there's this 
huge decline in revenue from sales tax, the commercial property 
tax, income tax, and we've got to fight for the money for State 
and local government, but we probably won't be successful in 
doing enough, and so we have to provide more flexibility for 
the funds we do provide.
     There are a number of requirements in the grants. One of 
those is the 25 percent for volunteer fire departments. I put 
that aside. I think there's a lot of support for that. But then 
there are the other requirements that in other times I think 
are important but may not be good to have now. The first of 
these is the matching requirement, and we've heard several 
witnesses say that we need to waive that. A second is that 
SAFER grants can be used only for new and additional 
firefighters, not to retain current staff. Should--how 
important is it--you know, that would be waived in the HEROES 
Act. How important is it that we waive that during the pandemic 
and a year or two after the COVID crisis? I wonder if any of 
our witnesses can address that.
     Mr. McGhee. I think it's important, Mr. Congressman, that 
the--if Congress does indeed adopt the waivers that we're 
suggesting or the lack of, however you want to say it, I think 
going into the future is important because this is going to 
linger around. The effects of the pandemic I think are going to 
linger in our economy for a while. I'm not an economist or an 
expert, just speaking from practical experience that it will 
take a little while to recover. I expect that we will fully 
recover. It'll take a little while. So, if the waivers are 
granted, as we're suggesting, not just for this current fiscal 
year or the HEROES Act but also into the future I think is 
going to go a long way to address your concern about how we 
deal with this going forward.
     Mr. Sherman. And in my prior life I headed the largest 
State tax agency, and I'll tell you, the commercial property 
tax revenues which so many cities rely upon are going to be 
hard-hit for several years. I'm hoping the sales tax and the 
income tax rebound, but of course this year is just going to be 
a terrible fiscal year for all our State and local governments.
     What about the maintenance of effort requirements? There 
are a host of those built into the bill but built into these 
programs. Do we--should those be suspended or retained in these 
two grant programs? Do we have a comment from any of our 
witnesses?
     Mr. Ludwig. I'm in favor and the IAFC is in favor of 
suspending those. That--they should also be waived.
     Mr. McGhee. And the IAFF is as well.
     Mr. Sherman. OK. And then, finally, there's been a report 
that some 64 percent of fire response--fire department 
responses were for medical aid back in 2018. Now we have this 
COVID crisis, I wonder how that has affected the mix between 
firefighting and the EMT services that your departments are 
doing.
     Mr. Ludwig. I'll just say that, you know, there's a common 
saying sometimes that we pump more oxygen than we do water. 
There's no doubt that we're mostly EMS agencies that sometimes 
go to fire calls, but we need those fire resources in place 
because we have to be able to manage that risk.
     So, one of the things that I have talked to my colleagues 
around the country about, and that is they've actually seen an 
increase of cardiac arrest in homes because people who might 
have gone to the doctor that have some pre-existing condition, 
asthma or heart condition, have waived that. They have not gone 
to the doctor. They haven't sought any type of medical type of 
consultation or any type of medical treatment, and so they 
tried to stick it out at home. And they got to the point where 
it actually affected their condition and they went into cardiac 
arrest.
     Most cardiac arrests--less than 1 percent of all calls for 
fire departments are cardiac arrest calls. I've talked to some 
of my colleagues around the country, they were running up to 12 
percent of the calls were cardiac arrest calls in homes because 
people were delaying treatment and responding going to their 
doctor, going to their clinic, going to the hospital because of 
their fear of going out and being exposed to the COVID-19 
disease. So, it really, really impacted our fire departments 
and our EMS agencies with the increase of these critical types 
of calls, the criticality of these calls.
     Mr. Sherman. I believe my time is expired. Thank you, 
Madam Chair.
     Chairwoman Johnson. Well, thank you very much. Mr. 
McNerney.
     Mr. McNerney. Thank you, Madam Chair, and I thank the 
witnesses. This has been an informative--something I wasn't 
really aware of was the importance of the waivers, so it's been 
informative on a lot of issues, but thank you for that.
     I'm also, like my other California colleagues and I think 
the colleagues in the Gulf States, am concerned about FEMA's 
ability to respond to natural disasters during the pandemic, 
and in order to help or in order to encourage them to prepare, 
I co-led a bicameral letter, along with Senator Kamala Harris, 
which was signed by 81 of our colleagues, requiring FEMA to 
outline their natural disaster preparation and recovery plans 
for the COVID-19 pandemic. We still haven't heard back from 
them, so I'm getting anxious that they haven't done the right 
preparation.
     Chief Ludwig, do you believe that the Federal partners 
like FEMA and the U.S. Forest Service are doing enough to share 
information and best practices in preparation for the wildfire 
season?
     Mr. Ludwig. Typically, we work through the U.S. Forest 
Service and the Bureau of Land Management a lot when it comes 
to wildland fire season. Now, FEMA has a role somewhere in 
there, and typically, they are very responsive to our needs. I 
can't speak for their preparation right now. I don't know where 
they're at with things, but I can tell you in the past they are 
typically responsive. But most of our interactions are with the 
Department of Forestry and the Bureau of Land Management when 
it comes to wildland fires.
     Mr. McNerney. OK, thank you. Mr. McGhee, you noticed--and 
this has been discussed at length really about the shortages of 
all types of PPEs. How do these needs vary across the different 
departments?
     Mr. McGhee. It's--without sounding trite, it's just all 
over the map. There are some departments that have an adequate 
supply of rubber gloves, but they don't have facemasks. They 
might have facemasks, but they don't have gloves or Tyvek 
suits. So, it's hard to categorize the type of PPE shortage on 
a universal basis if that make sense. It's really a question of 
each department and their own needs and what they had prior to 
the pandemic and how they've had to utilize their equipment 
during the pandemic I think is going to go a long way in 
helping them identify what they need for the future. And that's 
really all the information that I know so far, but we're 
working on how to better answer the question of what our 
members actually need.
     Mr. McNerney. Would there be a purpose or a need for a 
Federal coordinated effort to try and identify local needs or 
local shortages?
     Mr. McGhee. I think it could be helpful, and we've talked 
a little bit about communication and coordination between the 
different levels of government, and I think anything that can 
be done to facilitate that is a good idea.
     Mr. McNerney. Thank you. Mr. Hirsch, you've--and we've 
heard from other witnesses the importance of volunteer 
firefighters. What are some of the unique risks that volunteer 
firefighters face during the pandemic as opposed to 
professional firefighters?
     Mr. Hirsch. Well, you know, clearly our firefighters 
responding from their home or from their businesses and then 
taking that back to their businesses, they might be self-
employed, now all of a sudden, you know, their business is shut 
down, that's very unique. You know, the fact that we have very 
small agencies and the fact that you could have--you contract 
COVID within one of those small agencies and all of a sudden 
that agency is shut down. And, you know, my mutual aid is 30 
miles away. That's not going to work. So, we have to make sure 
that we're protecting our personnel day in and day out.
     Mr. McNerney. So, do you know if the provisions in the 
HEROES Act are--would be helpful if the act is brought into 
law?
     Mr. Hirsch. Well, it certainly would because it will 
allocate more money, it will make the pie bigger, and that will 
allow more departments to get funding.
     Mr. McNerney. Good. Thank you. Mr. McGhee, how about you? 
Do you think the provisions contained in the HEROES Act will 
help address the layoffs and the cutbacks problem?
     Mr. McGhee. Yes, it will if the waivers are adopted by 
Congress. Yes, they certainly will.
     Mr. McNerney. Thank you. I'm going to yield back, Ms.--
Madam Chair. Thank you.
     Chairwoman Johnson. Thank you very much. Mr. Tonko.
     Mr. Tonko. Can you hear me, Madam Chair?
     Chairwoman Johnson. Yes, I can.
     Mr. Tonko. All right. Well, thank you for convening this 
hearing, and thank you to our experts for providing your 
perspectives here. And it's good to hear your thoughts about 
the HEROES Act, which we hope the U.S. Senate will take up.
     Firefighters are among the most essential pieces of our 
local governments. The approximately 30,000 fire departments 
across our great country are part of the fabric of our 
communities not just because of their admirable willingness to 
rescue complete strangers from burning buildings but also 
because of the myriad of additional services they provide. 
Firefighters, like so many other local government employees, 
have been asked to do more with less, their missions expanded 
to include emergency medical response and general public 
safety. For example, I'm proud that the Albany Fire Department 
just this week completed an installation of free life vests 
around the capital region to improve water safety this summer.
     Chief Ludwig, you allude to this in your testimony, but 
could you talk a little bit more about the non-fire-related 
responsibilities that local fire departments now take on that 
the average American might not know about?
     Mr. Ludwig. Yes. Thank you, Congressman. One of the things 
that we like to say is that we're an all-hazards response. We 
respond to not only fires but EMS calls; we'll respond to 
hazardous material events. We respond to high-angle rescue 
events, dive accidents, you name the gamut, we are an all-
hazards response type of agency. So, when we use the word fire 
department, although the word fire is in there, there are a 
bunch of subsets or a bunch of equal distribution of our 
responsibilities across the board. And so it's so important 
that, again, we maintain the staffing to do that, we maintain 
the equipment, and that's why it's so vitally important that 
these Federal programs be in place for us financially to help 
support those operations.
     Mr. Tonko. Thank you. And, Mr. Hirsch, I would love to 
hear your perspective as well. How do volunteer fire 
departments serve their often rural communities in non-fire-
related ways?
     Mr. Hirsch. Well, I don't think there's probably any 
difference between the rural volunteer departments and the 
career big city departments. We're all handling the same type 
of calls. But you now have people who are the volunteers in 
that community who are taking their own time away from their 
families, away from their jobs, actually spending their own 
money to make sure that they can be volunteers for their 
neighbors. And that's why the grant programs are so important 
to us because it allows us to be able to carry out our mission, 
which is, as Gary said, all hazards. It isn't any different in 
the volunteer service than it is in the career.
     Mr. Tonko. So, it is clear to me that fire departments are 
providing services well beyond their original intent, and I 
applaud them for doing so. However, we should do more than 
applaud, we should fund, and I am proud that my office has 
provided 83 letters of support for AFG and SAFER grants with 
many more in the pipeline right now. So, Chief Ludwig, I would 
love to know from the perspective of Fire Chiefs, can you 
describe the process for applying for an AFG grant?
     Mr. Ludwig. Sure. So, what happens is the grant 
directorate, a part of FEMA, makes the announcement. Well, let 
me go back. Congress obviously approves the funding for that, 
so that such an--you are our heroes when you do that, quite 
frankly. So--but it's so important that, once that funding is 
done, the grant directorate announces it. There's a public 
announcement. There's a public--there's a period of time where 
fire departments then can apply. And there's an application 
process online, and fire departments will submit that 
application online, including their narrative of why they need 
the grant. And then that goes through a computerized system 
where--I don't know what the algorithms are to that, but 
eventually those that are selected to move forward are peer-
reviewed. And then once they're peer-reviewed, then the awards 
are made by the grant directorate.
     Mr. Tonko. Thank you. And how about from the firefighters' 
perspective, Mr. McGhee? Like the----
     Mr. McGhee. Thank you. Thank----
     Mr. Tonko [continuing]. Process for applying for the AFG 
grant?
     Mr. McGhee. Thank you, Congressman. I would--I will defer 
to Chief Ludwig as far as the process goes.
     Mr. Tonko. OK.
     Mr. McGhee. We typically get involved when we have the 
ability to work with our fire admin on a local basis to help 
them with their grant writing. And we have resources available 
also as an organization to help fire departments as they 
propose and apply for these grants.
     Mr. Tonko. And, Mr. Hirsch, just quickly, the--how does 
the grant-writing process differ for a volunteer fire 
department?
     Mr. Hirsch. It doesn't. It's the same process, the same 
application, same types of data. It's just that now you're 
dealing with people who are having to give more of their time, 
their families' time, and their business time to compile all 
those statistics, to write those narratives, and get them 
submitted.
     Mr. Tonko. Thank you. Again, thank you to our witnesses, 
and thank you to our Chair. Madam Chair, great hearing, and 
thank you. I yield back.
     Chairwoman Johnson. Thank you very much. Mr. Casten.
     Mr. Casten. Thank you. Thank you, Madam Chair. Thank you 
all for everything that you do and for being here today.
     Chief Ludwig, we got a lot of upstate Illinois represented 
on this Committee, but it's nice to see an Illinoisan who's 
here.
     Mr. Ludwig. Thank you.
     Mr. Casten. I wanted to ask you, if you could, in the PPE 
that you've been able to source--and just ballpark; I'm not 
looking for super precise--have you predominately been able to 
source your PPE via FEMA and what they've been doing? Has it 
predominately been from the State? Has it predominately been 
from your own sources? Like where have you found are the most 
effective channels to secure the PPE that you need?
     Mr. Ludwig. Well, early on, quite frankly, the supply 
chain was not there. We were putting in requests to the State 
agency, which then was to request up to the Federal level, and 
the supplies were not coming back, so we were forced to go 
outside and look for our own resources. Our mayor has some 
contacts with a company, and so we were able to secure some 
there. I had some people outreaching to me that they had N95 
and gowns. I talked to some of my colleagues around the 
country, and they weren't receiving anything. They weren't even 
receiving a full box of gloves. They were receiving like five 
or six pairs of gloves. So, they didn't have the resources we 
might've had to go out and find stuff, so it was really, really 
challenging for us early on and really challenging for a lot of 
my colleagues around the country to find the proper PPE from 
frankly anywhere.
     If I might just take also another second, our COVID task 
force, our task force at the IAFC, we had an expert on there 
who was looking at fake N95s coming out of Southeast Asia, and 
at one point we were detecting about 90 percent, quite frankly, 
of all of the equipment, N95s that were coming out of Southeast 
Asia, China, Malaysia, some other countries like that, were 
fake N95s. We actually did webinars on how to spot fake N95 
masks.
     Mr. Casten. So, you mentioned early on. Is that still the 
case? Where are you sourcing from now?
     Mr. Ludwig. We're actually in much better shape at this 
point. As the curve has flattened and supply chain with the 
airlift has become better, and also local companies in the 
United States have also begun manufacturing under the Defense 
Production Act, that supply chain has become better. So, those 
resources are now available at the State level.
     Mr. Casten. But are you sourcing--is the State running 
that program for you or is FEMA running that program or are you 
doing that independently?
     Mr. Ludwig. So, how the typically works is we would put a 
request in through our county emergency management agency. We 
then push the request up to our State emergency management 
agency. And if they have that equipment within that national 
stockpile within our State, those caches within our State, we 
can allocate it from there. If not, they're pushing the request 
up to the FEMA at the Federal level.
     Mr. Casten. OK. So, the reason I ask the question is on 
April 6--we have these periodic briefings from FEMA to all the 
Midwestern folks, and on April 6 we were on a call from FEMA 
where they told us that they were reprioritizing PPE to where 
they were seeing hotspots. I asked FEMA on that call how they 
were identifying hotspots because on April 6 we didn't have 
enough testing to understand, and I was promised a reply, and I 
have yet to receive a reply from FEMA. But I remain concerned 
that if FEMA is in fact prioritizing--and we heard from a lot 
of local Governors that, you know, States are fighting with 
each other, which is not particularly efficient. This is a 
little bit of a precise question, but in early April did you 
see any significant change in how FEMA was coordinating that 
response or was the change that you described subsequent to 
that?
     Mr. Ludwig. It's ironic you asked me that question because 
we did have an hour-long conversation with the Administrator 
Pete Gaynor, and those exact words were used. They were 
reprioritizing because we were concerned--we heard reports that 
they were seizing equipment from fire departments that were 
actually ordering supplies directly from a supplier. He denied 
that, that that was occurring, but he did state that they were 
reprioritizing where they saw the needs at. And so that was a 
concern for us because obviously our priority here locally or 
in some other community is their priority, and so that was the 
problem, and you had much more demand than you had supply.
     Mr. Casten. Yes. OK. Well, thank you. And just, you know, 
for all on the call, the concern I have is that if we weren't 
testing everybody in the country at that point or anybody who 
wasn't symptomatic, it's hard to know how FEMA was doing that 
prioritization. And the fact that I haven't gotten a response 
from FEMA in 2 months still has my spidey sense tingling, so it 
sounds like you heard the same thing I did. I'm sorry you had 
to go through that. We'll keep punching through, and if our 
office can do anything to help with that, let us know. Thank 
you, and I yield back.
     Chairwoman Johnson. Thank you very much. Dr. Foster.
     Mr. Foster. Well, thank you, Madam Chair, and to our 
witnesses.
     I'd like to change the subject a little bit to research 
and standards. As you all know, the National Fire Protection 
Association develops consensus codes and is the standards 
development organization for the fire service community. Codes 
and standards of care and so on are very important when we're 
facing new threats like COVID-19 when many of the health 
threats are not obvious. Could you elaborate a little bit first 
on your organization's involvement in the standards development 
process and the COVID-19-related research and standards 
development efforts that have happened and how it's--the whole 
system has been working in the crisis so you actually know what 
the standard of care and safety should be? Take it in any order 
as----
     Mr. Hirsch. Well, speaking for the National Volunteer Fire 
Council, we've got a number of board members who serve--are 
appointed to and serve on the various NFPA Committees, and we 
monitor those all the time. It's a very important part of the 
process for us.
     Mr. Foster. Yes. Well, do you get real-time information 
and updates on, you know, what is safe, you know, handling a 
COVID-positive patient or suspected COVID-positive patient? You 
know, the understanding of what was safe and what wasn't has 
evolved very rapidly over the course of this crisis. Do you 
see--are you getting a good level of information, or is there 
room for some improvement there?
     Mr. Hirsch. Well, I'm sure there's always room for 
improvement, but I think most of the volunteer fire service is 
probably relying upon the guidance from CDC.
     Mr. Foster. Yes. Chief Ludwig, any comments?
     Mr. Ludwig. I would just echo, yes, we have--we are 
stakeholders on many of those consensus-building committees for 
standards with the NFPA, and we also work with the EMS office 
with the National Highway Traffic Safety Administration where 
they developed the curriculum for medical care. We're also 
stakeholders in that.
     The standards that we use what we call is--we protect 
ourselves whether it is a COVID patient or whether they have a 
blood-borne disease or any type of airborne disease, those 
standards are pretty universal. We use universal precautions on 
all patients. What we were fearful of was the fear factor of, 
you know, how spreadable is this disease? How transmittable is 
this disease? Can it hang in the air for another 5 or 6 hours 
after we leave the room? So, those were concerns that we had 
that early on I don't know if the science or the technology 
existed to push that out, so all we could do is rely on our 
national standards of medical care and also the CDC 
recommendations.
     Mr. Foster. OK.
     Mr. McGhee. Congressman, I don't have much to say about 
research, but the IAFF is working hand-in-hand with FEMA, with 
CDC, with Health and Human Services and other governmental 
agencies to work through the development of protocols as we've 
already talked about, and any research related to the 
effectiveness of PPE would be welcome. More research, since we 
don't know a lot about the virus itself, is certainly always 
welcome, and anything that we can learn about to help reduce 
the transmission of the COVID virus and protect firefighters 
organizationally and as professional firefighters, we are very 
interested in that and very interested in what could be--or 
what programs could be developed to help us accomplish that.
     Mr. Foster. Yes. No, I just--because obviously the 
standard of protection for you guys are--has to be a lot higher 
than for the average citizen because you're handling, you know, 
potentially, you know, a very dangerous virus. And in trying to 
just understand whether the--there is a high--highly responsive 
system to make sure that you get the information in a timely 
manner.
     Now, I guess I'll change subjects a little bit. You know, 
I'm very supportive of all the emergency COVID funding for 
firefighters and first responders, but really to maintain the 
support or, you know, a bigger pie for everyone, then the 
allocation has to be seen as fair. And, you know, Chief Ludwig, 
you're in a small town in rural--or medium-sized town in rural 
Illinois, and--but, you know, often what we're seeing is that 
because you're in a large population State, you're--you end up 
being punished.
     So, for example, Laramie, Wyoming, a similar-sized town, 
gets five times more money according to the CARES allocation 
that was written in the Senate. And so this sort of thing, I 
was just wondering, do you sense that in the, when you're 
making grant applications and so on, trying to get the money 
that you need, that all of a sudden that you find that being in 
a large population State, you're disadvantaged because, you 
know, the nature of the grant allocations or the State totals?
     Mr. Ludwig. Quite frankly, I'm not aware of how they 
allocate that or any type of a process they use on the 
distribution of that money. I always thought it was based upon 
the need and based upon the practicality of your application 
demonstrating that need. I didn't know--and so forgive me for 
my lack of knowledge in that, but I didn't know that there was 
just a certain amount that was allocated in certain places. So, 
if that's the case, I'm not sure if that's a fair process, and 
I would add that's probably not a fair process since it should 
be based upon need and the demand.
     Mr. Foster. Yes. And basically the number of people that--
in your fire protection district, the first approximation. 
They--really, the Federal assistance to citizens shouldn't 
depend on where they live, and so I think that's a--anyway, 
thank you again, Madam Chair, and I yield back.
     Chairwoman Johnson. Thank you very much. Mr. Beyer.
     Mr. Beyer. Well, first, I want to thank all of you for 
hanging in there to the very end. Chief, they saved the best 
for last. E.B., will you mind doing a second round? I'm just 
kidding. I'm just kidding. I'm just kidding.
     I met with my Fire Chiefs in Arlington, Fairfax, and 
Alexandria recently. It was a very good meeting. And, 
interestingly, PPE never came up. They said they were actually 
in very good shape. I'm not sure whether our State or local 
governments planned well, but they did talk about lots more 
cardiac incidents, a lot more strokes. As you guys pointed out, 
people were just postponing going to the emergency room until 
fire and EMS had to come to their home.
     They did say the hardest part by far was staffing, people 
will get sick, the overtime that was necessary, things like 
that.
     Sandy, I think I have a specific question for you. The 
biggest thing that's been going on in our lives is police 
brutality, Black Lives Matter, all this stuff that's come up 
with first responders in terms of reaction. And you hear there 
are big websites with incident after incident of inappropriate 
police behavior. By the way, we know that 95-plus percent of 
police are doing a good job, but we're trying to deal with the 
other 5 percent.
     How come we don't hear this at all about firefighters? You 
guys are out there responding, too, to dangerous situations and 
people with mental health incidents.
     Mr. McGhee. You're 100 percent right. Thank you very much 
for the question. And I think it might just be related to how 
we're trained. I'm not sure about that. We respond on a daily 
basis across the United States with our police counterparts 
that usually goes off without a hitch and not a problem, so I 
can't really speak to why the fire service is not experiencing 
the same issues that the police service is other than to say it 
could be related to the type of training that we receive and 
the way that we operate on a daily basis. Firefighters work as 
a team. We fight fire together, we work on EMS calls together, 
we eat together, we train together, we do everything together, 
so it only serves in my mind to mean that that's why there's a 
difference. But I'm only speaking anecdotally. I have no basis 
in fact for my own opinion there.
     Mr. Beyer. Well, anecdotally, we need to hold you guys up 
for what we can expect the police departments to evolve into, 
which we hope.
     And I want to thank all of you, too, for the--the 
suffering that your 1,000-plus firefighters who have gotten 
sick, the 55-plus who have died. That's an awful lot of 
suffering, and we really respect that.
     Chief, I've visited many of the fire departments in my 
area. I woke up at 2:30 three nights ago and there was a big 
fire truck pulling down the driveway next to my house. It was 
quiet. They didn't turn their sirens on. And I realized later 
in the morning that they were responding to a medical 
emergency. Why is it--and if 64 percent-plus of the responses 
are medical rather than fire, why do we send the big trucks 
with the four or five people every time somebody has a--chest 
pains or a fainting incident or whatever?
     Mr. Ludwig. Well, yeah, you're talking about a deployment 
model, and----
     Mr. Beyer. Yes.
     Mr. Ludwig [continuing]. Quite frankly, one of the aspects 
of that is since we all are--we all are all-hazard, we respond 
to those medical emergencies, but you never know what you're 
going to need. You might need some type of extrication tool off 
that if you can't get into the house if no one answers the 
door. There's a variety of different things.
     So, the other thing is we are strategically deployed. No 
matter what the emergency is, whether it's a fire or whether it 
is an EMS call of whether it's someone who's trapped in a 
collapse of a building, whatever the case may be, we show up 
with all the resources that we have because you might need it 
because you don't want to wait for another truck to come from a 
greater distance. And so that's just a deployment model that is 
actually economically efficient so that you don't have to have 
multiple trucks serving multiple roles. That one truck serves 
multiple roles with multiple people who are all-hazard, who 
have multi-response capabilities.
     Mr. Beyer. OK, great. Thanks.
     Steve, one quick question. Firefighters gave up smoking a 
number of years ago, and now COVID-19 obviously is a lower-lung 
disease. How has the antismoking, non-smoking culture evolved 
within firefighting?
     Mr. Hirsch. I don't know that it's evolved any differently 
necessarily in the volunteer fire service than it has among the 
general population. We know that it's not good for us, and so 
we just don't.
     But, you know, historically--historically, you know, 
career firefighters essentially had to retire when they reached 
age 50, and that wasn't any magic number. What it was was we 
lacked the equipment available to protect our lungs. You know, 
if we cut our hands and we bleed for a little while, it heals 
within a week or two. Lungs are not that way. They don't ever 
heal, so we have to protect our lungs. And I think, you know, 
firefighters are uniquely situated to understand that. Perhaps 
that's why we've seen such a good reduction in the use of 
tobacco products among firefighters.
     Mr. Beyer. Well, thank you very much.
     Madam Chair, I yield back. I think it's 9 p.m. in London.
     Chairwoman Johnson. Thank you very much. I think that's 
our last witness. But before we bring the hearing to a close, I 
want to thank our witnesses, excellent witnesses for testifying 
before the Committee today. And the record will remain open for 
2 weeks for additional statements for the Members or any other 
additional questions that the Committee may want to ask the 
witnesses.
     Our witnesses are now excused, and our meeting is 
adjourned.
     [Whereupon, at 3 o'clock p.m., the Committee was 
adjourned.]

                                Appendix

                              ----------                              

                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
